No.

In the Supreme Court of the United States
SULZER MIXPAC AG, PETITIONER,
v.
A&N TRADING COMPANY, ET AL.,
RESPONDENTS.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI
MICHAEL T. MURPHY
DANIEL HWANG
SUZANNE E. KONRAD
GLOBAL IP COUNSELORS,
LLP
1233 Twentieth Street, N.W.
Ste. 600
Washington, DC 20036
(202) 293-0444
CHARLES DEWEY COLE
NEWMAN MYERS KREINES
HARRIS P.C.
40 Wall Street 26th Floor
New York, NY 10005
(212) 619-4350

LISA S. BLATT
Counsel of Record
SARAH M. HARRIS
A. JOSHUA PODOLL
SUMEET DANG
HELEN E. WHITE
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com

QUESTION PRESENTED
Whether any degree of utility categorically renders a
product feature functional and thus ineligible for federal
trademark protection under the Lanham Act, 15 U.S.C.
§ 1127.

(i)

ii
CORPORATE DISCLOSURE STATEMENT
The parent corporation of Sulzer Mixpac AG is Sulzer
AG, a Swiss company. There is no other publicly held corporation that owns 10% or more of the stock of Sulzer
Mixpac AG.

iii
TABLE OF CONTENTS
Page

OPINIONS BELOW ........................................................... 1
JURISDICTION ................................................................. 1
STATUTORY PROVISIONS INVOLVED ..................... 2
STATEMENT ...................................................................... 2
Factual Background ................................................ 4
Procedural Background .......................................... 5
REASONS FOR GRANTING THE PETITION ........... 6
I. The Circuits Are Sharply Divided Over Whether
Any Degree of Utility Categorically Renders a
Trademark Functional................................................... 7
II. The Question Presented Is Recurring, Important,
and Squarely Presented .............................................. 13
III. The Decision Below Is Wrong ................................... 18
CONCLUSION .................................................................. 20
Appendix A: Opinion of the Second Circuit
(Feb. 18, 2021)............................................................... 1a
Appendix B: S.D.N.Y. Findings of Fact and
Conclusions of Law (Aug. 14, 2019) .......................... 20a
Appendix C: S.D.N.Y. Judgment and Permanent
Injunction (Aug. 14, 2019) ......................................... 31a
Appendix D: Excerpt of Trial Transcript
(May 9, 2019) ............................................................... 33a
Appendix E: Order of the Second Circuit Denying
Rehearing (May 6, 2021)............................................ 43a
Appendix F-K: Statutory Provisions ............................. 45a
Appendix L: Sulzer Mixpac Advertisement .................. 75a

iv
TABLE OF AUTHORITIES
Page

Cases:
Bodum USA, Inc. v. A Top New Casting Inc.,
927 F.3d 486 (7th Cir. 2019) .................................... 9
Constructive Eating, Inc. v. Masontops, Inc.,
2021 WL 719701 (E.D. Mich. Feb. 23, 2021) ....... 16
Converse, Inc. v. Int’l Trade Comm’n,
909 F.3d 1110 (Fed. Cir. 2018) .............................. 11
Ezaki Glico Kabushiki Kaisha v. Lotte Int’l
Am. Corp., 986 F.3d 250 (3d Cir. 2021) .... 11, 12, 18
Frosty Treats, Inc. v. Sony Comput. Ent. Am.
Inc., 426 F.3d 1001 (8th Cir. 2005).......................... 9
Fuji Kogyo Co., Ltd. v. Pac. Bay Int’l, Inc.,
461 F.3d 675 (6th Cir. 2006) .................................... 8
Ga.-Pac. Consumer Prods. LP v. KimberlyClark Corp., 647 F.3d 723 (7th Cir. 2011) .............. 9
Home Builders Ass’n v. L&L Exhibition
Mgmt., Inc., 226 F.3d 944 (8th Cir. 2000) ........ 9, 10
I.P. Lund Trading ApS v. Kohler Co.,
163 F.3d 27 (1st Cir. 1998) ................................... 7, 8
In re Morton-Norwich Prods., Inc.,
671 F.2d 1332 (C.C.P.A. 1982)......................... 10, 11
Inwood Labs. Inc. v. Ives Labs., Inc.,
456 U.S. 844 (1982) ............................................. 2, 19
Kirtsaeng v. John Wiley & Sons, Inc.,
136 S. Ct. 1979 (2016) ............................................. 13
Laboratorios Pisa S.A. De C.V. v. PepsiCo,
Inc., 2021 WL 783854
(S.D. Tex. Feb. 27, 2021)........................................ 15
Leapers, Inc. v. SMTS LLC,
879 F.3d 731 (6th Cir. 2018) .................................... 9
Matal v. Tam, 137 S. Ct. 1744 (2017) ......................... 13

v
McAirlaids, Inc. v. Kimberly-Clark Corp.,
756 F.3d 307 (4th Cir. 2014) .................................... 8
Moldex-Metric, Inc. v. McKeon Prods., Inc.,
891 F.3d 878 (9th Cir. 2018) ...................... 10, 15, 17
Park ’N Fly, Inc. v. Dollar Park & Fly, Inc.,
469 U.S. 189 (1985) ................................................. 14
Qualitex Co. v. Jacobson Prods. Co., 514 U.S.
159 (1995)........................................................ passim
Romag Fasteners, Inc. v. Fossil, Inc.,
140 S. Ct. 1492 (2020) ............................................. 12
Shandong Shinho Food Indus. Co. v. May
Flower Int’l, Inc., 2021 WL 736710
(E.D.N.Y. Feb. 25, 2021) ....................................... 15
Sulzer Mixpac AG v. A&N Trading Co.,
2019 WL 10378258 (S.D.N.Y. Aug. 14,
2019) ........................................................................... 1
Sulzer Mixpac AG v. A&N Trading Co.,
988 F.3d 174 (2d Cir. 2021) ...................................... 1
Sure Fit Home Prods., LLC v. Maytex Mills,
Inc., 2021 WL 2134863
(S.D.N.Y. May 26, 2021) ........................................ 15
Tools USA & Equip. Co. v. Champ Frame
Straightening Equip., Inc.,
87 F.3d 654 (4th Cir. 1996) ...................................... 8
Toyo Tire Corp. v. Atturo Tire Corp.,
2021 WL 463254 (N.D. Ill. Feb. 9, 2021) .............. 16
TrafFix Devices, Inc. v. Marketing Displays,
Inc., 532 U.S. 23 (2001) .......................................... 19
Two Pesos, Inc. v. Taco Cabana, Inc.,
505 U.S. 763 (1992) ................................................... 2
Valu Eng’g, Inc. v. Rexnord Corp.,
278 F.3d 1268 (Fed. Cir. 2002) ................................ 8
WCM Indus., Inc. v. Hirshfeld,
2021 WL 1430449 (E.D. Va. Apr. 6, 2021)............ 15

vi
Statutes:
Lanham Act,
Pub. L. No. 79-489, 60 Stat. 427 (1946)
(codified at 15 U.S.C. § 1051 et seq.) ............ passim
§ 1052 ......................................................................... 2
§ 1065 ....................................................................... 17
§ 1114 ..................................................................... 2, 5
§ 1115 ....................................................................... 17
§ 1125 ......................................................................... 5
§ 1127 ......................................................................... 2
28 U.S.C. § 1254(1) ......................................................... 2
Other Authorities:
Administrative Office of the U.S. Courts, Just
the Facts: Intellectual Property Cases—
Patent, Copyright, & Trademark (Feb. 13,
2020), https://tinyurl.com/5bt52xvd ...................... 13
H.R. Rep. No. 79-219 (1945) ........................................ 14
U.S. Patent and Trademark Office,
Trademark Manual of Examining
Procedures § 1202.02(a)(v) .................................... 20

In the Supreme Court of the United States
SULZER MIXPAC AG, PETITIONER,
v.
A&N TRADING COMPANY, ET AL.,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Sulzer Mixpac AG respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Second Circuit in this case.
OPINIONS BELOW
The Second Circuit’s order denying Mixpac’s petition
for rehearing is unreported. Pet.App.43a-44a. The opinion of the United States Court of Appeals for the Second
Circuit is reported at 988 F.3d 174. Pet.App.1a. The opinion of the district court is not reported but is available at
2019 WL 10378258. Pet.App.20a.
JURISDICTION
The order of the court of appeals denying petitioner’s
petition for rehearing was entered on May 6, 2021.

(1)

2
Pet.App.43a-44a. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions are reproduced in
the appendix to this petition. See Pet.App.45a-74a.
STATEMENT
This case presents an important, recurring, and outcome-determinative question of federal trademark law
that divides the courts of appeals. The Lanham Act enables sellers of goods to protect their trademarks, which
consumers use to distinguish between brands and to identify the distinctive sources. A “trademark,” under the
Act, is a “word, name, symbol, or device . . . used by a person[] . . . to identify and distinguish his or her goods . . .
from those manufactured or sold by others and to indicate
the source of the goods.” 15 U.S.C. § 1127. This protection extends to product features or designs—commonly
called “trade dress.” Two Pesos, Inc. v. Taco Cabana,
Inc., 505 U.S. 763, 764-65 & n.1 (1992). The Lanham Act
also protects consumers and trademark holders from copycats and counterfeiters by prohibiting the use of others’
trademarks in ways that are “likely to cause confusion, or
to cause mistake, or to deceive.” 15 U.S.C. § 1114(1).
The Act excludes protection for trademarks that
“comprise[] any matter that, as a whole, is functional.” Id.
§ 1052(e)(5). “[A] product feature is functional . . . if it is
essential to the use or purpose of the article or if it affects
the cost or quality of the article.” Qualitex Co. v. Jacobson Prods. Co., 514 U.S. 159, 165 (1995) (quoting Inwood
Labs. Inc. v. Ives Labs., Inc., 456 U.S. 844, 850 n.10
(1982)).
The courts of appeals are now intractably split over
how to determine whether a trademark is functional. Until the decision below, at least seven courts of appeals

3
considered the fact that a product feature has some useful
purpose as one factor in a holistic evaluation of whether a
product feature is functional. Thus, the First, Fourth,
Sixth, Seventh, Eighth, Ninth, and Federal Circuits consider not just the degree of utility, but also other factors,
such as whether the trademark holder has advertised the
utility of the feature, cost savings in making the product
as a result of the design feature, and the availability of
other designs for competitors to use. The USPTO has
taken a similar approach by advising its Trademark Examining Attorneys not to confuse functionality with a bare
finding that a design serves some function.
In the decision below, however, the Second Circuit
bucked that consensus and held that any degree of utility
categorically renders a product feature functional. Thus,
in the Second Circuit, product features that serve any
purpose at all cannot receive trademark protection.
The importance of this split renders this case worthy
of this Court’s review. Functionality is one of the most
frequently litigated defenses to trademark infringement.
If successful, that defense invalidates a trademark. But if
different circuits use different functionality tests, the validity of a trademark would depend on where a party
litigated. That disparity destroys the uniformity the Lanham Act sought to create and encourages aspiring
trademark infringers to forum-shop by operating under
the Second Circuit’s pro-infringement test. Further, the
Second Circuit’s opinion jeopardizes scores of well-known
trademarks, from the red wax on Maker’s Mark bottles
(which protects the cork) to the rubber toe-cap on Converse’s Chuck Taylor sneakers (which protects the
wearer’s toes) to the brown color on UPS’s trucks (which
hides grime).

4
Only this Court can clarify this recurring issue of
trademark law. And this case is an ideal candidate for review. It presents a pure question of federal law on which
the courts of appeals are clearly divided. Whether any degree of utility categorically renders trade dress functional
was squarely presented and dispositive below. The Court
should grant the petition.
A. Factual Background
Mixpac is a Swiss manufacturer of dental products.
Pet.App.4a. Mixpac sells a system for mixing adhesives
comprised of two different chemicals that combine to
make, for example, material used to make impressions of
teeth. Id. Mixpac’s system has three components. Id.
First is a dispenser, which works like a caulking gun: it
forces liquid material out of a cartridge when a dentist
pulls the trigger. Id. The second component is the cartridge, which other manufacturers typically buy and then
fill with their own materials. Pet.App.4a-5a. The final
component is the disposable mixing tip. Id. Mixing tips
have a plastic base that attaches to the cartridge and a
nozzle with a mixing element inside that blends the materials:

Pet.App.75a.
Dental material manufacturers buy Mixpac’s cartridges, fill them, and package the filled cartridge with a
recommended tip. Pet.App.5a.

5
For over 20 years, Mixpac has used its “Candy Colors” to distinguish its mixing tips from competitors’ and
signal superior quality. Pet.App.5a-6a. The USPTO
granted Mixpac trademark registrations for the Candy
Colors®—yellow, teal, blue, pink, purple, and brown. Id.
Mixpac also makes cartridge caps in the Candy Colors®.
Pet.App.9a. Other manufacturers use different colors or
no color at all for their mixing tips. Pet.App.10a.
A&N Trading Company, A&N Trading Co Ltd., and
Sung Bin An (collectively “A&N”) distribute mixing tips
manufactured by Seil Global—a company run by Mr. An’s
parents. Pet.App.5a. The U.S. District Court for the
Southern District of New York had previously enjoined
Seil Global from selling candy-colored mixing tips that
blatantly imitated Mixpac’s. Pet.App.5a-7a. In 2016, despite Mixpac’s trademark registrations, A&N “displayed
and advertised [Seil Global’s] mixing tips” featuring colors that were “identical or nearly identical to the colors on
Mixpac’s mixing tips.” Pet.App.6a.
B. Procedural Background
1. Mixpac sued A&N in the same court, alleging
trademark infringement, 15 U.S.C. §§ 1114, 1125(a),
trademark counterfeiting, 15 U.S.C. § 1114, and false designation of origin, 15 U.S.C. § 1125(a). Pet.App.7a.
Following a bench trial, the district court found that “this
is a knockoff case pure and simple,” that A&N was attempting “to capitalize on the goodwill and market
position of Mixpac,” and that A&N’s use of the Candy Colors® “was in bad faith.” Pet.App.38a-39a.
The court found that the Candy Colors® were a
“strong mark” in the dental market. Pet.App.39a. The
district court also rejected A&N’s defense that the mixing
tips were functional, finding that the Candy Colors®
added to the cost of manufacturing, and that competitors

6
used alternative designs. Pet.App.22a, 39a-41a. The district court enjoined A&N from selling mixing tips in the
Candy Colors® and awarded Mixpac $2,000,000 in damages. Pet.App.31a-32a.
2. The Second Circuit reversed, holding that a product feature with any utility at all “affect[ed] the quality”
of the product, rendering it functional, even if the feature’s utility was not “essential to use of the product.”
Pet.App.15a-17a. The Second Circuit further held that so
long as a product feature has some small modicum of utility, courts cannot consider other factors, like “other
design possibilities” or any “effect on competition,” as
part of the functionality inquiry. Pet.App.16a-17a (citation omitted). Applying that test, the Second Circuit
found the Candy Colors® were functional because, in the
court’s view, each color signified a given diameter for the
tip and thus “affect[ed] the quality” of the mixing tips.
Pet.App.17a. According to the Second Circuit, that small
degree of utility alone transformed the Candy Colors®
from a whimsical, source-identifying adornment into a
functional feature of a dental product.
The Second Circuit denied Mixpac’s petition for rehearing en banc and panel rehearing on May 6, 2021.
Pet.App.43a-44a. This petition followed.
REASONS FOR GRANTING THE PETITION
This petition presents a conflict among the courts of
appeals on an important and recurring question of federal
law concerning trademark protection for product features
that serve some useful purpose. The Second Circuit held
that any usefulness renders a product feature unprotectable, departing sharply from the First, Fourth, Sixth,
Seventh, Eighth, Ninth and Federal Circuits, all of which
treat a feature’s utility as only one factor among many in
the functionality inquiry.

7
This clear circuit split warrants this Court’s review.
The question presented is frequently litigated and often
dispositive in trademark litigation. And the Second Circuit’s anomalous approach means that trademarks are
uniquely vulnerable to invalidation in New York federal
courts, which hear a disproportionate share of the nation’s
trademark cases. Virtually all circuits that hear trademark disputes have weighed in, and this split will not
resolve without this Court’s intervention. Delay would
only exacerbate the impact of the decision below, which
jeopardizes the validity of countless trademarks. If those
trademarks are invalidated under the Second Circuit’s
outlier standard and copycats enter the market, trademark holders will lose the value of their brands. This case
presents the issue squarely, cleanly, and in an oft-recurring fact pattern and is therefore an ideal vehicle.
I.

The Circuits Are Sharply Divided Over Whether Any Degree of Utility Categorically Renders a Trademark
Functional

At least seven circuits hold that product features can
receive trade dress protection even if the feature has
some utility. The Second Circuit, in the decision below,
departed from this consensus by imposing a categorical
rule that any degree of usefulness makes a product feature functional and thus unprotectable.
1. The First, Fourth, Sixth, Seventh, Eighth, Ninth,
and Federal Circuits all treat a finding that a product feature has some utility as the beginning, not the end, of the
functionality analysis.
Start with the First Circuit: In I.P. Lund Trading
ApS v. Kohler Co., 163 F.3d 27 (1st Cir. 1998), the First
Circuit explained that “[t]he fact that a product contains
some functional elements does not . . . preclude Lanham
Act protection.” Id. at 37. Instead, the “crucial inquiry is

8
into the effect that granting protection will have on the
opportunity of others to compete.” Id. The First Circuit
thus declined to hold that a particular faucet design was
functional, even though aspects of the design “g[a]ve the
appearance of being functional” and were “suggestive of
functionality.” Id. at 38.
The Fourth Circuit applies a multi-factor approach
and considers “the existence of utility patents” claiming
the relevant product feature; “advertising focusing on the
utilitarian advantages of a design”; “the availability of
functionally equivalent designs”; and “the effect of the design on manufacturing.” McAirlaids, Inc. v. KimberlyClark Corp., 756 F.3d 307, 313 (4th Cir. 2014) (internal
quotation marks omitted). These factors assess whether
a trademarked feature is “not merely useful, but rather
essential to the use or purpose of the article.” Tools USA
& Equip. Co. v. Champ Frame Straightening Equip.,
Inc., 87 F.3d 654, 659 (4th Cir. 1996) (internal quotation
marks omitted). Thus, in McAirlaids the Fourth Circuit
held that the functionality of McAirlaids’ absorbent pads’
“unique bonding pattern,” which concededly affected the
pads’ absorbency, stretchiness, and strength, was a question of fact for a jury. 756 F.3d at 313-14 (citation
omitted).
The Sixth Circuit also refuses to treat some degree of
utility as dispositive and assesses other factors. The Sixth
Circuit considers the existence of utility patents, advertising materials “tout[ing] [a] design’s utilitarian
advantages,” and the availability of alternative designs to
competitors. Fuji Kogyo Co., Ltd. v. Pac. Bay Int’l, Inc.,
461 F.3d 675, 685 (6th Cir. 2006) (quoting Valu Eng’g, Inc.
v. Rexnord Corp., 278 F.3d 1268, 1274 (Fed. Cir. 2002)).
The Sixth Circuit also evaluates whether “the design results in a comparatively simple or cheap method of
manufacturing the product.” Id. (citation omitted).

9
In Leapers, Inc. v. SMTS LLC, for example, the Sixth
Circuit reversed a district court’s summary-judgment ruling that the knurling pattern on a rifle scope was
functional. 879 F.3d 731, 738-40 (6th Cir. 2018). Although
all agreed that knurling had some utility, there were unresolved factual issues regarding the degree of
usefulness, the availability of alternative designs, and the
reason the plaintiff selected the particular pattern. Id.
The Seventh Circuit takes a similar multi-factor approach to functionality. That court considers “advertising
. . . that touts the utilitarian advantages of the item’s design elements,” the availability of “alternative designs,”
“the existence of a utility patent . . . that involves or describes the functionality of a[ ] . . . design element,” and
the “utilitarian properties of the item’s unpatented design
elements.” Bodum USA, Inc. v. A Top New Casting Inc.,
927 F.3d 486, 492 (7th Cir. 2019) (quoting Ga.-Pac. Consumer Prods. LP v. Kimberly-Clark Corp., 647 F.3d 723,
727-28 (7th Cir. 2011)), cert. denied, 140 S. Ct. 675 (2019).
The Seventh Circuit also considers, as part of this multifactor test, “the effect of the design feature on an item’s
quality or cost.” Id.(citation omitted). None of these factors, however, “is dispositive.” Id. Applying this test, the
Seventh Circuit held that the handle of a French Press
coffeemaker was not functional, even though having a
handle made the device easier to use. Id. at 492-95.
The Eighth Circuit also distinguishes “the colloquial
meaning of ‘functional’” from “the specialized meaning
that it has in trademark law,” which requires more than
bare utility. Frosty Treats, Inc. v. Sony Comput. Ent.
Am. Inc., 426 F.3d 1001, 1007 (8th Cir. 2005). Thus, “[t]he
fact that [a] feature . . . serves some function is not
enough” to make the feature functional. Home Builders
Ass’n v. L&L Exhibition Mgmt., Inc., 226 F.3d 944, 948
(8th Cir. 2000) (citation omitted). Under that standard,

10
the Eighth Circuit determined that a trademark of an
event name containing “St. Louis” was non-functional,
even though including “St. Louis” served some utilitarian
purpose by conveying that the event was in St. Louis.
Home Builders, 226 F.3d at 948-49. The name did not
“impact patent law concerns,” nor did the name’s “exclusive use . . . prevent the sponsors of competing [events]
from competing effectively using other, equally descriptive names.” Id. at 949.
The Ninth Circuit has similarly held that a design feature is not automatically functional simply because it has
some utility. The Ninth Circuit considers not just
“whether the design yields a utilitarian advantage,” but
also “whether alternative designs are available[,] . . .
whether advertising touts the utilitarian advantages of
the design[,] and . . . whether the particular design results
from a comparatively simple or inexpensive method of
manufacture.” Moldex-Metric, Inc. v. McKeon Prods.,
Inc., 891 F.3d 878, 880 n.2 (9th Cir. 2018) (citation omitted). The Ninth Circuit has made clear that “[n]o single
factor is dispositive and all should be weighed collectively.” Id. Indeed, the Ninth Circuit held that a
reasonable jury could find that the fluorescent green color
of earplugs was not functional, even though the bright
color undisputedly made the earplugs more visible during
safety checks. Id. at 887.
The Federal Circuit has also adopted a multifactor
test and held that trade dress with some utility was not
functional in light of that test. In re Morton-Norwich
Products, Inc. adopted a four-factor test looking to “the
existence of an expired utility patent”; whether a trademark holder “touts [a design’s] utilitarian advantages
through advertising”; whether “there are other alternatives available”; and whether the “particular design
results from a comparatively simple or cheap method of

11
manufacturing the article.” 671 F.2d 1332, 1340-41
(C.C.P.A. 1982). The Federal Circuit relied on that fourfactor test to reject an argument that the rubber toe cap
and bumper design of Converse’s famous Chuck Taylor
sneakers was functional—despite possible “functional
benefit[s]” from shoe toe caps and bumpers. Converse,
Inc. v. Int’l Trade Comm’n, 909 F.3d 1110, 1124 (Fed. Cir.
2018).
2. In the decision below, the Second Circuit unambiguously adopted a categorical approach. The court of
appeals held that if a product feature has any utility, it
“affects the quality of the product” and is therefore functional. Pet.App.17a. It is not relevant, in the Second
Circuit’s view, that the product feature is not “essential to
use of the product.” Pet.App.15a. Because even a minimal degree of utility affects the product’s quality, the
Second Circuit explained, it did not need to consider either “other design possibilities” or whether affording
trademark protection would have “a significant effect on
competition.” Pet.App.16a-17a (citation omitted). Thus,
breaking with the consensus of other circuits, the Second
Circuit’s analysis started and finished with its finding that
Candy Colors® had some degree of usefulness.
The difference between the Second Circuit’s approach and the approaches of other courts of appeals is
stark. In at least seven other circuits, a product feature’s
minimal utility would be the jumping-off point for further
inquiry. But the Second Circuit will invalidate a trademark covering that feature, even if the feature has only a
minimal degree of utility, plentiful alternative designs,
and serves primarily to identify the product’s source.
The Third Circuit’s recent functionality decision,
Ezaki Glico Kabushiki Kaisha v. Lotte Int’l Am. Corp.,
986 F.3d 250 (3d Cir. 2021), pet. for cert. docketed, No. 201817 (U.S. June 29, 2021), reinforces the need for this

12
Court’s review. In that decision, the Third Circuit held
that Ezaki Glico’s stick-shaped, partially chocolate-coated
cookie design was functional because the design made the
cookie “more useful as a snack.” Id. at 259-60. That decision could be interpreted either to adopt a per se rule (like
the Second Circuit) or to endorse a multi-factor analysis
(like the other seven circuits). In a preliminary discussion
defining the term “functional,” the Third Circuit relied on
dictionary definitions equating “functional” with “useful.”
Id. at 256. That discussion suggests that any “usefulness”
would render a product functional, as the Second Circuit
held in this case.
But the Third Circuit also observed that “[t]here are
several ways to prove functionality,” including through
evidence that (1) “a feature or design makes a product
work better”; (2) advertising “touts a feature’s usefulness”; (3) a utility patent claims the relevant product
features; and (4) “there are only a few ways to design a
product.” Id. at 258. Those factors are more consistent
with the courts of appeals that conduct a multifaceted
analysis. See id. Either way, the Third Circuit’s ambiguous decision piles onto a clear circuit split in an area of
trademark law where clarity is essential. 1
3. This petition presents a quintessential question for
the Court’s review. This Court has repeatedly granted
certiorari to decide, in the intellectual-property context,
whether a single factor is dispositive or whether courts
must consider and balance competing values. For example, the Court granted certiorari in Romag Fasteners,
1
Ezaki Glico has petitioned for a writ of certiorari. See No. 201817. Ezaki Glico reads the Third Circuit to have held that a design
feature is functional if it is “useful” in any manner. If Ezaki Glico
were correct, the Third Circuit would join the Second Circuit on the
minority side of a 7-2 split.

13
Inc. v. Fossil, Inc., and rejected willfulness as a precondition to an award of profits in a trademark suit, instead
siding with circuits that had considered multiple equitable
factors to determine whether such an award was appropriate. 140 S. Ct. 1492, 1497 (2020); see also, e.g.,
Kirtsaeng v. John Wiley & Sons, Inc., 136 S. Ct. 1979,
1988 (2016) (granting certiorari to hold that the objective
reasonableness of a losing party’s legal position is “only
an important factor in assessing [attorneys’] fee[s] applications—not the controlling one”). In light of the acute
and recognized need to “provide a degree of national uniformity” in intellectual property law, Matal v. Tam, 137
S. Ct. 1744, 1751-52 (2017), this Court has swiftly resolved
splits among the circuits over inflexible formulations of
patent, trademark, and copyright law.
Nor is there any need for further percolation. Nine
circuits already have weighed in, and the split spans the
most important venues for trademark litigation. New
York alone saw 9,659 trademark cases between 1996 and
2018, or 12 percent of all trademark cases in the United
States. See Administrative Office of the U.S. Courts, Just
the Facts: Intellectual Property Cases—Patent, Copyright,
&
Trademark
(Feb.
13,
2020),
https://tinyurl.com/5bt52xvd. California was the only
state with more trademark filings, hearing 16,526 cases
and 21 percent of the national trademark caseload. Id.
That the Ninth Circuit and Second Circuit find themselves on opposite sides of the split ensures that the two
most frequent venues for trademark litigation will continue reaching divergent results. This Court’s immediate
intervention is warranted to remedy that stark disparity.
II. The Question Presented Is Recurring, Important, and
Squarely Presented

The Second Circuit’s decision contravenes the core
national interest in uniformity underlying the Lanham

14
Act, goes to the heart of one of the most frequently raised
trademark defenses, and undermines the well-settled expectations of trademark holders and consumers.
1. The circuits’ inconsistent approaches to functionality undermine the interest in national uniformity that
prompted the Lanham Act. Previous federal trademark
legislation “reflected the view that protection of trademarks was a matter of state concern” and consequently
“rights to trademarks were uncertain and subject to variation in different parts of the country.” Park ’N Fly, Inc.
v. Dollar Park & Fly, Inc., 469 U.S. 189, 193 (1985). Congress enacted the Lanham Act in 1946 to fix this problem,
endeavoring to “put all existing trade-mark statutes in a
single piece of legislation” and hoping to “simplify trademark practice.” H.R. Rep. No. 79-219 (1946), at 4; see also
id. (recognizing that “trade is no longer local, but is national”). The Second Circuit’s departure from the
functionality approach of at least seven other circuits has
recreated the same regionally divergent trademark laws
that Congress intended to fix in 1946.
The Second Circuit’s divergent approach threatens
national trademark registrations. The Lanham Act confers “national protection for trademarks used in
interstate and foreign commerce.” Park ’N Fly, 469 U.S.
at 193. But in light of the circuit split, a trademark holder
could successfully defend its trademark on functionality
grounds in any of the at least seven circuits employing a
multi-factor approach, yet face invalidation of the exact
same trademark in the Second Circuit.
The circuit split is particularly problematic for color
trademarks, notwithstanding this Court’s unanimous decision upholding their qualification for trademark
protection in Qualitex. 514 U.S. at 166. “When a color
serves as a mark, normally alternative colors will likely be
available for similar use by others.” Id. at 168 (citation

15
omitted). Consistent with its multi-factor test, the Ninth
Circuit has found alternative colors “particularly probative” in evaluating the functionality of a color trademark,
even where the color has some utility. Moldex-Metric,
891 F.3d at 886. Yet the Second Circuit’s per se rule
means that it declined to consider precisely what the
Ninth Circuit found “particularly probative”: alternatives
to the Candy Colors®. Pet.App.17a. Without this Court’s
intervention, the viability of color trademarks will thus depend significantly on where an infringement suit is
brought.
For example, UPS enjoys trademark protection for
the “chocolate brown” it has used to color its delivery
trucks for more than a century. See Reg. No. 2,901,090.
That brown color obviously serves some function—it
hides grime better than lighter colors. Nonetheless, in
the Ninth Circuit, the existence of numerous alternative
colors that similarly hide grime (e.g., other shades of
brown, beige, grey) is powerful evidence that UPS’s
trademark is not invalid as functional. Moldex-Metric,
891 F.3d at 886. In the Second Circuit, by contrast, those
alternative colors are irrelevant and the minimal functionality of UPS’s chocolate brown threatens the validity of its
trademark.
The frequency with which courts grapple with the
functionality defense amplifies the importance of resolving the split. Functionality is among the most frequently
litigated trademark defenses. Many courts have adjudicated the issue in the first half of 2021 alone. See, e.g.,
Sure Fit Home Prods., LLC v. Maytex Mills, Inc., 2021
WL 2134863, at *5 (S.D.N.Y. May 26, 2021); WCM Indus.,
Inc. v. Hirshfeld, 2021 WL 1430449, at *2 (E.D. Va. Apr.
6, 2021); Laboratorios Pisa S.A. de C.V. v. PepsiCo, Inc.,
2021 WL 783854, at *4 (S.D. Tex. Feb. 27, 2021); Shandong Shinho Food Indus. Co. v. May Flower Int’l, Inc.,

16
2021 WL 736710, at *22 (E.D.N.Y. Feb. 25, 2021); Constructive Eating, Inc. v. Masontops, Inc., 2021 WL
719701, at *9-11 (E.D. Mich. Feb. 23, 2021); Toyo Tire
Corp. v. Atturo Tire Corp., 2021 WL 463254, at *3-8 (N.D.
Ill. Feb. 9, 2021).
2. The Second Circuit’s per se rule also threatens
countless trademarks and risks confusing the many consumers who rely on those trademarks to navigate the
marketplace. A finding of functionality invalidates a
trademark and is a complete defense to its infringement.
Qualitex, 514 U.S. at 164-65. But virtually all designs
have some function. Coca-Cola’s iconic glass bottle design
functions as a beverage container. The iconic copper and
black design of Duracell batteries helps the user know
which end is which. The Volkswagen Beetle’s rounded
body makes the car more aerodynamic. A Jeep’s formidable grill lets air into the engine. The colors on a Rubik’s
cube match to identify each side. The orange cap on a bottle of Elmer’s glue helps one find the bottle in a cabinet.
And the red wax seal on a bottle of Maker’s Mark protects
the cork from air. Countless additional examples abound.
The Second Circuit’s categorical approach, however,
threatens to invalidate trademarks for all these designs
despite their indisputable distinctiveness to consumers.
Knock-off artists seeking to capitalize on the goodwill of
such designs thus have a strong incentive to operate in the
Second Circuit, where they have a better chance of prevailing, rather than in circuits that use a multi-factor
analysis. And consumers will be less able to rely on recognizable features when purchasing once-trademarked
products.
These consequences are especially pernicious for the
holders of well-established trademarks. Congress has afforded “incontestable” status to registered trademarks
that have been in continuous use for more than five years,

17
granting those trademarks additional protections and immunities. 15 U.S.C. § 1065. But even incontestable
trademarks can be invalidated as functional. Id. § 1115(b).
By significantly expanding the functionality doctrine, the
Second Circuit’s approach undermines the expectations of
even the most settled trademark holders. Mixpac, for example, has used and advertised its Candy Colors® for
more than 20 years in reliance on nationwide, incontestable U.S. trademark registrations—registrations that the
Second Circuit’s per se rule jeopardized.
3. This case is an ideal vehicle to resolve the question
presented, as the issue is squarely before the Court and is
outcome-determinative. There is no doubt that A&N has
flagrantly infringed Mixpac’s trademarks if they are valid.
The district court nearly a decade ago enjoined Seil
Global—A&N’s “alter ego”—from selling candy-colored
mixing tips, and has repeatedly held Seil Global in contempt for violating those injunctions (though Seil Global
has never paid the resulting fines). Pet.App.23a-27a.
Thus, the district court had little difficulty concluding now
that “this is a knockoff case pure and simple,” and that
there is “no doubt” that A&N’s “bad faith” use of Mixpac’s
trademarked colors engendered a “very high likelihood of
confusion.” Pet.App.38a-39a.
The Second Circuit did not dispute these findings.
That court reversed the district court’s judgment in favor
of Mixpac based on its understanding that the Candy Colors® served some minimal purpose—i.e., “the colors
signify [the] diameter” of the mixing tips. Pet.App.15a
(quotations omitted). In at least seven other circuits, the
minimal utility of the colors would have been just one of
many factors to weigh. E.g., Moldex, 891 F.3d at 887. The
courts would be free to hold that the existence of alternative colors outweighed any slight utility the Candy
Colors® trademark may have—as the district court here

18
did. Id. By erecting an absolute rule that any degree of
utility makes a product functional, the decision below invalidated trademarks that would have survived in any
other circuit.
The petition for certiorari from the Third Circuit’s decision in Ezaki Glico (No. 20-1817) raises similar issues
involving the functionality doctrine. This case presents a
particularly ideal vehicle for the Court to address those
issues, because the Second Circuit’s decision below unambiguously imposed a bright-line rule that any degree of
utility categorically renders a design feature functional
and then refused to consider any other factors. At a minimum, given the importance of the functionality doctrine
to trademark law and the extensive circuit split, this
Court should grant certiorari in both cases.
III. The Decision Below Is Wrong

The Second Circuit’s holding that any degree of functionality categorically renders a design “functional” as a
matter of law flouts both this Court’s precedents and common sense. That per se rule serves only to arbitrarily
exclude designs from trademark protection and this
Court should reject it.
This Court in Qualitex rejected the notion that functionality begins and ends with finding that a design
feature has some utility. There, after affirming that
“color alone” may qualify for trademark protection, the
Court evaluated whether the “green-gold color” of the
dry-cleaning pads at issue was functional. Qualitex, 514
U.S. at 165-66. The Court recognized that the color
served some function: “it [was] important to use some
color on press pads to avoid noticeable stains.” Id. at 166.
But the Court went on to hold that the color was nonetheless non-functional because there was no “competitive
need in the press pad industry for the green-gold color,

19
since other colors were equally usable.” Id. (quotations
omitted); see also id. (characterizing inquiry as whether
design serves a “significant function”); Inwood Labs., Inc.
v. Ives Labs., Inc., 456 U.S. 844, 850 n.10 (1982) (“[A] product feature is functional if it is essential to the use or
purpose of the article or if it affects the cost or quality of
the article.” (emphasis added)).
In TrafFix Devices, Inc. v. Marketing Displays, Inc.,
this Court again rejected a single-minded focus on
whether a product has some degree of utility. 532 U.S. 23
(2001). This Court explained that even a feature claimed
in a patent as part of a useful invention is not automatically functional. Id. at 29-30. The court must still evaluate
whether that patented feature is “not functional, for instance by showing that it is merely an ornamental,
incidental, or arbitrary aspect of the device.” Id. at 30.
The Second Circuit’s categorical rule cannot be reconciled with these precedents. That rule eviscerates the
core holding of Qualitex that a design feature was not
functional even though it had some utility. 514 U.S. at 166.
The rule likewise turns TrafFix on its head by holding
that any degree of utility is dispositive without considering whether a feature is nonetheless “ornamental,
incidental, [or] arbitrary.” 532 U.S. at 30. And the rule
renders irrelevant this Court’s separate test for “aesthetic” functionality, where the function of a design lies in
its aesthetic value. See id. at 32-33. If a feature is per se
functional at the first hint of utility, courts will never need
to reach the question whether “exclusive use of the feature” puts “competitors at a significant non-reputationrelated disadvantage.” Qualitex, 514 U.S. at 165. A design cannot create a significant competitive disadvantage
if it is entirely useless.

20
The Second Circuit’s per se rule similarly contravenes
the approach taken by the USPTO in examining trademark applications.
Consistent with this Court’s
precedents, the agency’s examination manual makes clear
that “whether a product feature is ‘functional’ should not
be confused with whether that product feature performs
a ‘function.’” U.S. Patent & Trademark Office, Trademark Manual of Examining Procedures § 1202.02(a)(v).
That rejection of a per se approach draws from the common-sense observation that “most objects perform a
function, for example, a bottle holds liquid and a lamp provides light. However, only certain configurations that
allow an object to work better are functional.” Id. The
Second Circuit’s per se rule ignored this USPTO practice
just as it ignored the teachings of this Court. This Court
should address this important question, which has divided
the lower courts and made all the difference to the outcome of this case below.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
MICHAEL T. MURPHY
DANIEL HWANG
SUZANNE E. KONRAD
GLOBAL IP COUNSELORS,
LLP
1233 Twentieth St. N.W.
Ste. 600
Washington, DC 20036
(202) 293-0444
CHARLES DEWEY COLE
NEWMAN MYERS KREINES
HARRIS P.C.

LISA S. BLATT
Counsel of Record
SARAH M. HARRIS
A. JOSHUA PODOLL
SUMEET DANG
HELEN E. WHITE
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com

21
40 Wall St. 26th Floor
New York, NY 10005
(212) 619-4350

SEPTEMBER 14, 2021

Counsel for Petitioner

APPENDIX

APPENDIX A:

Opinion, No. 19-2951, Court of
Appeals for the Second Circuit,
Feb. 18, 2021 ................................... 1a

APPENDIX B:

Findings of Fact and
Conclusions of Law, No. 16-cv9175, District Court for the
Southern District of New York,
Aug. 14, 2019 ................................. 20a

APPENDIX C:

Judgment and Permanent
Injunction, No. 16-cv-9175,
District Court for the Southern
District of New York,
Aug. 14, 2019 ................................. 31a

APPENDIX D:

Trial Transcript, No. 16 Civ.
9175, District Court for the
Southern District of New York,
May 9, 2019 .................................... 33a

APPENDIX E:

Order, No. 19-2951, Court of
Appeals for the Second Circuit,
May 6, 2021 .................................... 43a

APPENDIX F:

15 U.S.C. § 1052 ............................ 45a

APPENDIX G:

15 U.S.C. § 1065 ............................ 48a

APPENDIX H:

15 U.S.C. § 1114 ............................ 50a

APPENDIX I:

15 U.S.C. § 1115 ............................ 56a

APPENDIX J:

15 U.S.C. § 1125 ............................ 59a

APPENDIX K:

15 U.S.C. § 1127 ............................ 69a

APPENDIX L:

Sulzer MIXPAC candy
collection advertisement, Second
Circuit Joint Appendix p. 1896 .... 75a

1a
APPENDIX A
19-2951
Sulzer Mixpac AG v. A&N Trading Co., et al.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
___________________
August Term, 2020
(Argued: November 13, 2020 Decided: February 18, 2021)
Docket No. 19-2951
___________________
SULZER MIXPAC AG,
Plaintiff-Counter-Defendant-Appellee,
v.
A&N TRADING COMPANY, A&N TRADING CO.,
LTD., and SUNG BIN AN, AKA TONY AN,
Defendants-Counter-Claimants-Appellants. 1
___________________
Before: JACOBS, POOLER, and BIANCO, Circuit
Judges.

1

The Clerk of Court is directed to amend the caption as above.

2a
Appeal from grant of final judgment of the United
States District Court for the Southern District of New
York (Lewis A. Kaplan, J.) to Sulzer Mixpac AG on its
claims of unfair competition, infringement of common law
trademarks, and its claims under the Trademark Act of
1946 (Lanham Act), 60 Stat. 427, as amended, 15 U.S.C.
§ 1051 et seq., for trademark counterfeiting, infringement
of registered marks, and false designation of origin. The
district court held that Mixpac’s trade dress—its use of
yellow, teal, blue, pink, purple, brown, and white on
mixing tips—is not functional. We disagree, and hold that
the use of these colors on mixing tips is functional, as the
colors signify diameter and enable users to match a
cartridge to the appropriate mixing tip.
Therefore, we reverse and remand for entry of final
judgment in favor of A&N Trading Company, A&N
Trading Co., Ltd., and Sung Bin An on Sulzer Mixpac
AG’s unfair competition, trademark infringement,
trademark counterfeiting, and false designation of origin
claims. We decline to address A&N Trading Company,
A&N Trading Co., Ltd., and Sung Bin An’s counterclaims.
We also decline to address in the first instance Sulzer
Mixpac AG’s civil contempt claim, which the district court
did not reach.
Reversed and remanded.
___________________
JOSHUA B. KATZ, Kent, Beatty &
Gordon, LLP, (Jack A. Gordon, on the
brief), New York, NY, for DefendantsCounter-Claimants-Appellants
A&N
Trading Co., A&N 3 Trading Co., Ltd. and
Sung Bin An, aka Tony An.

3a
MICHAEL T. MURPHY, Global IP
Counselors, LLP (Daniel Hwang, Suzanne
E. Konrad, on the brief), Washington, DC,
for Plaintiff-Counter-Defendant-Appellee
Sulzer Mixpac AG.
Charles D. Cole, Jr., Newman Myers
Kreines Harris, P.C. (on the brief), New
York,
NY,
for
Plaintiff-CounterDefendant-Appellee Sulzer Mixpac AG.
POOLER, Circuit Judge:
If a product’s trade dress is functional, there can be no
trade dress protection. The functionality doctrine is at the
core of the parties’ dispute. Plaintiff-Counter-DefendantAppellee Sulzer Mixpac AG (“Mixpac”) and DefendantsCounter-Claimants-Appellants A&N Trading Company,
A&N Trading Co., Ltd., and Sung Bin An, also known as
Tony An (collectively, “A&N”) are competitors in the U.S.
market for mixing tips used by dentists to create
impressions of teeth for dental procedures, such as
crowns.
A&N appeals from a final judgment and permanent
injunction entered in the United States District Court for
the Southern District of New York (Lewis A. Kaplan, J.)
on Mixpac’s claims of unfair competition, common law
trademark infringement, and trademark infringement,
trademark counterfeiting, and false designation of origin
under the Trademark Act of 1946 (the “Lanham Act”), 60
Stat. 427, as amended, 15 U.S.C. § 1051 et seq., and on
A&N’s counterclaims seeking a declaratory judgment
that Mixpac’s trade dress is functional. The district court
entered judgment for Mixpac on these counts. A&N

4a
argues on appeal that Mixpac’s use of particular colors on
mixing tips is functional because the colors serve as a
color-coding scheme that signifies the size of a mixing tip.
Following a one-day bench trial, the district court
concluded that Mixpac’s use of particular colors on mixing
tips was not functional, as the colors add to manufacturing
costs and other companies use different or no colors for
their mixing tips. We disagree. The evidence establishes
that the colors signify mixing tip sizes, enabling users to
more easily match cartridges to the appropriate mixing
tips. Therefore, we conclude that Mixpac’s trade dress is
functional. We reverse the judgment of the district court,
and remand. We decline to address in the first instance
A&N’s argument that the district court should have
dismissed Mixpac’s contempt claim with prejudice.
BACKGROUND
I. The Parties
Mixpac manufactures a system to mix adhesives for
dental applications. The system consists of a dispenserlike caulking gun, a cartridge containing two cylinders,
and a mixing tip. Mixpac manufactures all three parts of
the system and is a leading supplier of mixing tips. A
mixing tip is composed of a cylinder that contains helixes
that blend components as they pass through the tip. The
materials that are mixed come from a two-cylinder
cartridge. The mixing tip is attached to the cartridge via
the mixing tip’s cap. The cartridge, in turn, is attached to
the dispenser-like caulking gun. When the trigger of the
caulking gun is pulled, the components inside the
cartridge are pushed into the mixing tip for blending. To
accommodate different types of dental procedures,
mixing tips vary in their diameter, the length of the

5a
helixes that mix component materials, and cap sizes.
Mixpac’s customers are primarily dental material
manufacturers such as 3M ESPE and Dentsply that buy
Mixpac cartridges, fill them with their own dental
materials, and sell sets of filled cartridges and mixing tips
to dental distributors. The distributors, in turn, sell to
dental professionals. Mixpac also sells mixing tips
directly to dental distributors, such as Henry Schein.
A&N Trading Company is the predecessor company
of A&N Trading Co., Ltd., a corporation of South Korea.
A&N distributes mixing tips that are manufactured by
Seil Global Co., Ltd. (“Seil Global”). Sung Bin An, also
known as Tony An, is a citizen of South Korea. An is the
president, sole owner, and only employee of A&N Trading
Co., Ltd. An’s mother is the president of Seil Global and
his father is Seil Global’s chief executive officer. An is a
shareholder of Seil Global and has been a Seil Global
employee since February 2016.
II. Mixpac’s Trademark Registrations and A&N’s
Alleged Infringement
Mixpac owns twelve U.S. trademark registrations for
particular colors on mixing tips. On March 23, 2010, it
obtained trademarks on the principal register for the use
of yellow and teal on mixing tip caps. On June 14, 2011, it
obtained trademarks on the principal register for the use
of blue, pink, purple, and brown on mixing tip caps. In
January 2015 and January 2016, it obtained registered
marks on the principal register for these same colors as
“applied to the lower portion of dental mixing tips.” App’x
at 884; see also App’x at 885-89. Mixpac also owns
trademarks on the supplemental register for yellow, teal,
blue, pink, purple, and brown (collectively, the “Candy

6a
Colors”) as applied to mixing tip cylinders and helixes,
which it obtained in July and November of 2017. 2 App’x
at 890-901.
The trademark registrations reflect that Mixpac used
Candy Colors on mixing tip caps as early as December
1997, but only began to use Candy Colors on mixing tip
cylinders and helixes in 2017. The only exception was
blue, which Mixpac used on mixing tip cylinders and
helixes as early as 2009.
Notwithstanding Mixpac’s trademark registrations,
A&N displayed and advertised mixing tips with clear caps
and colored helixes during the 2016 Greater New York
Dental Meeting (“2016 GNYDM”), held from November
27-30, 2016. The colors were identical or nearly identical
to the colors on Mixpac’s mixing tips. Tony An
represented A&N at the 2016 GNYDM. Seil Global
manufactured the mixing tips that A&N displayed and
paid A&N’s expenses for the 2016 GNYDM.
Seil Global and Mixpac already had a tumultuous
history. In 2008, Mixpac sued Seil Global and five other
dental products manufacturers and distributors in the
U.S. District Court for the Southern District of New York,
alleging trademark and trade dress infringement (the
Registration on the principal register confers on the mark’s holder
certain benefits in litigation, including a rebuttable presumption that
the mark is valid. See 15 U.S.C. § 1115(a). The supplemental register
lists “non-mark designations . . . that are only ‘capable’ of someday
becoming a ‘mark’ upon the acquisition of secondary meaning.’ 3 J.
Thomas McCarthy, McCarthy on Trademarks & Unfair Competition
§ 19:33 (5th ed. 2020). Thus, registration on the supplemental register
does not confer the same benefits as does registration on the principal
register, see 15 U.S.C. § 1094; in fact, it “does nothing to enlarge the
substantive rights of the registrant.” Clairol Inc. v. Gillette Co., 389
F.2d 264, 267 (2d Cir. 1968).

2

7a
“2008 Litigation”). Seil Global defaulted. In 2009, the
district court entered a default judgment in Mixpac’s
favor, followed by a permanent injunction against Seil
Global, prohibiting it and “its principals, officers,
members, agents, servants, employees, attorneys, and
those persons under their control or in active concert or
participation with them who receive actual notice” from
“selling, offering for sale, distributing, or advertising any
mixing tips that infringe The Colored Dome Mark and
Mixpac Trade Dress” or from “assisting, aiding or
abetting” any entity in doing so. Special App’x at 4-5. On
May 28, 2013, the district court entered an order for civil
contempt and sanctions against Seil Global after it failed
to respond to multiple orders to show cause. The district
court awarded $41,250 in damages and imposed a $20,000
fine, which remain unpaid. An became aware of the
permanent injunction and civil contempt order no later
than 2016.
III.

Proceedings in District Court

On November 28, 2016, as the 2016 GNYDM
continued, Mixpac filed suit against A&N, alleging unfair
competition, infringement of common law marks, and
claims under the Lanham Act for trademark infringement
under 15 U.S.C. §§ 1114 and 1125(a), trademark
counterfeiting under 15 U.S.C. § 1114, and false
designation of origin under 15 U.S.C. § 1125(a). 3 Mixpac
also sought to hold A&N in civil contempt of the injunction
entered in the 2008 Litigation. A&N counterclaimed,
alleging that Mixpac’s use of Candy Colors on mixing tips
was functional and, therefore, its trademark registrations
Mixpac also sued A&N for violations of Sections 349, 350, and 360-1
of New York’s General Business Law, which the parties stipulated to
dismiss.
3

8a
should be canceled.
Mixpac filed a Supplemental
Complaint on February 12, 2019 to plead new U.S.
trademark registrations, namely the registrations on the
supplemental register.
After a one-day bench trial held on May 9, 2019, the
district court granted final judgment and a permanent
injunction for Mixpac on its claims for unfair competition,
false designation of origin, infringement, and
counterfeiting. The district court did not reach the
contempt claim and awarded Mixpac $2 million in
statutory damages.
Witnesses presented direct
testimony through written statements, followed by cross
and redirect examinations. A&N called two witnesses:
Tony An and Dr. George Cisneros, a Professor at the
NYU College of Dentistry who testified as an expert.
Mixpac called three witnesses: Paul Jutzi, Mixpac’s
Director of Technology and Innovation; Daniel Ferrari,
Mixpac’s Director of Market Segment Healthcare; and
expert witness Dr. Howard S. Glazer, a dentist with a
general dental practice in Fort Lee, New Jersey. Mixpac
also introduced the posthumous direct testimony of
expert witness Jacob Jacoby, Ph.D., who ran a consumer
research firm.
The witnesses testified as to the Candy Colors’
purpose. Jutzi testified that applying Candy Colors to the
mixing tips “adds time and significant cost” and it “would
be less expensive for Mixpac to make clear mixing tips
without any color.” App’x at 582. He testified that while
“Mixpac makes mixing tips with different sizes and types
in the same color, and also the same size in different
colors . . . [it] provides cartridges and mixing tips that can
be matched by the same color.” App’x at 583. His
testimony on cross-examination (considered together

9a
with other evidence in the record) acknowledges that all
yellow mixing tips are 4.2 millimeters in diameter, all teal
mixing tips are 6.5 millimeters in diameter, and all blue
mixing tips are 3.2 millimeters in diameter. Ferrari
similarly testified on cross-examination that Mixpac’s
catalog identifies mixing tip diameters by color, where
teal indicates 6.5 millimeters, pink indicates 5.4
millimeters, yellow indicates 4.2 millimeters, blue
indicates 3.2 millimeters, and brown indicates 2.5
millimeters. Glazer testified that in dental practice he
does “not use, or select, a replacement mixing tip based
on [c]olor alone because each of the two-component
materials used is unique.” App’x at 383.
Additional evidence sheds light on the Candy Colors’
purpose. In connection with the 2008 Litigation, Mixpac
submitted declarations from its employees.
In a
declaration dated November 25, 2008, Richard J. Wilson,
then Business Manager for Sulzer Mixpac USA,
described that, “[t]o assist in identifying Mixpac’s product
and to enable users to quickly select a mixing tip that
matches the proper cartridge, [Mixpac] chose a unique
and arbitrary color coding system.” App’x at 2622.
Wilson further declared that the “colors of the cartridge
cap are matched to the mixing tip to indicate the proper
size and mixing ratio for the dental materials.” App’x at
2623. Armin Hegglin, then Area Sales Manager U.S. for
Mixpac, similarly declared that “Mixpac uses a color code
with its mixers to enable an end user to quickly identify
the appropriate [t]ip that is matched with the same
colored cartridge cap.” App’x at 2629. Further, Mixpac’s
advertising materials assert that “[i]n order to simplify
handling MIXPAC is using color-coded mixers and outlet
caps. The color of the outlet cap used for a certain dental

10a
product identifies the mixer best suited for th[e] product.”
App’x at 2468.
In addition to the bench trial testimony, the
declarations of Mixpac employees, and Mixpac’s
advertising materials, websites advertise mixing tips
based primarily on their color under Mixpac’s system. A
website for Dental City, for example, advertises a bag of
48 pink mixing tips with 5.4 millimeter diameters, the
same diameter as Mixpac’s pink mixing tips. Materials
manufacturers also rely on Mixpac’s color-coding scheme
in their product use instructions. Thus, Mixpac is “the
leader of its industry” and “holds nearly 100% of the
market” of Candy Colored mixing tips. App’x at 2493.
On August 14, 2019, the district court issued its
findings of fact and conclusions of law, and a final
judgment and permanent injunction in Mixpac’s favor.
The district court concluded that the Candy Colors are
non-functional because Mixpac’s use of the colors “adds to
the cost to Mixpac of making . . . mixing tips” and “[o]ther
companies in the industry use different colors or no colors
for their dental products including dental mixing tips.”
Special App’x at 3.
The district court incorporated its oral factual findings
on the record at trial into its findings of fact and
conclusions of law. At trial, the district court found that
An was dishonest in his testimony and deliberately
spoliated evidence of communications with potential
customers following his attendance at the 2016 GNYDM.
It also found that Cisneros’ testimony was not credible.
Most importantly, with respect to functionality, the
district court applied the functionality standard as
discussed in Fabrication Enterprises, Inc. v. Hygenic
Corp., 64 F.3d 53, 59 (2d Cir. 1995). It found that it was

11a
“satisfied from Dr. Glazer’s quite persuasive and credible
testimony that the degree of functionality here is small”
and that “[m]ost important of all with respect to
functionality is the fact that alternative designs are
obviously and clearly available without impairing the
utility of the product.” App’x at 859. It thus rejected
A&N’s argument that color is a proxy for diameter. The
district court acknowledged however, that “a small
minority” of dentists “have [probably] asked for a yellow
tip or a blue tip.” App’x at 858.
The district court concluded that Mixpac proved by a
preponderance of the evidence that it holds valid marks
for the Candy Colors, that A&N “used a reproduction,
counterfeit, copy, or colorable imitation” of the marks
without Mixpac’s consent, and that it did so “in connection
with the sale, distribution, or advertising of goods.”
Special App’x at 9-10. It also concluded that such use was
likely to cause confusion and did cause confusion. The
district court also concluded that A&N failed to prove
their counterclaims by a preponderance of the evidence. 4
DISCUSSION
On appeal from a bench trial, we determine whether
the district court’s “findings of fact were clearly
erroneous.” Ezekwo v. N.Y.C. Health & Hosps. Corp., 940
F.2d 775, 780 (2d Cir. 1991) (internal quotation marks
omitted). Factual findings are clearly erroneous if “they
are without adequate support in the record, are against
We decline to rule as to the propriety of the district court’s
conclusion that A&N failed to prove their counterclaims by a
preponderance of the evidence because A&N’s brief does not explain
why that was error. See Gross v. Rell, 585 F.3d 72, 95 (2d Cir. 2009)
(“[I]ssues not sufficiently argued are in general deemed waived and
will not be considered on appeal.”) (internal quotation marks omitted).
4

12a
the clear weight of the evidence, or are the product of an
erroneous view of the law.” Id. In addition, with respect
to the district court’s legal conclusions, “our scope of
review is de novo.” Id.
I. Functionality
A product’s design “may acquire a distinctiveness
which serves to identify the product with its
manufacturer” and such design “is a trade dress which
may not be used in a manner likely to cause confusion as
to the origin, sponsorship, or approval of the goods.”
TrafFix Devices, Inc. v. Mktg. Displays, Inc., 532 U.S. 23,
28 (2001). The Lanham Act provides a cause of action
when a person “uses in commerce any word, term, name,
symbol, or device, or any combination thereof . . .
which . . . is likely to cause confusion . . . as to the origin,
sponsorship, or approval of his or her goods.” 15 U.S.C.
§ 1125(a)(1)(A). The Lanham Act also prohibits:
without the consent of the registrant— . . .
us[ing] in commerce any reproduction,
counterfeit, copy, or colorable imitation of a
registered mark in connection with the sale,
offering for sale, distribution, or advertising
of any goods or services on or in connection
with which such use is likely to cause
confusion, or to cause mistake, or to deceive.
15 U.S.C. § 1114(1)(a)
There is, however, a “well-established rule that trade
dress protection may not be claimed for product features
that are functional.” TrafFix, 532 U.S. at 29. In WalMart Stores, Inc. v. Samara Brothers, Inc., the Supreme
Court advised against overextension of trade dress,
noting that “product design almost invariably serves

13a
purposes other than source identification.” 529 U.S. 205,
213 (2000).
“The functionality doctrine prevents
trademark law, which seeks to promote competition by
protecting a firm’s reputation, from instead inhibiting
legitimate competition by allowing a producer to control a
useful product feature.” Qualitex Co. v. Jacobson Prods.
Co., 514 U.S. 159, 164 (1995). “Trade dress protection
must subsist with the recognition that in many instances
there is no prohibition against copying goods and
products.” TrafFix, 532 U.S. at 29. This applies even
where an entity makes significant investments in a
particular feature, because the Lanham Act “does not
protect trade dress in a functional design simply because
an investment has been made to encourage the public to
associate a particular functional feature with a single
manufacturer or seller.” Id. at 34-35.
“Whether a trade dress is or is not functional is a
question of fact disturbed on appeal only if clearly
erroneous.” Fun-Damental Too, Ltd. v. Gemmy Indus.
Corp., 111 F.3d 993, 1002 (2d Cir. 1997). 5 In our Circuit,
“a product feature is considered to be ‘functional’ in a
utilitarian sense if it is (1) ‘essential to the use or purpose
of the article,’ or if it (2) ‘affects the cost or quality of the
article.’” Christian Louboutin S.A. v. Yves Saint Laurent
Am. Holding, Inc., 696 F.3d 206, 219 (2d Cir. 2012)
A&N asserts in a footnote in its opening brief that this Court has not
yet decided the standard of review applicable to a district court’s
functionality finding following the Supreme Court’s decision in
TrafFix. To the extent that this can be characterized as an argument,
a footnote is “insufficient to raise the argument on appeal.” Citizens
Against Casino Gambling in Erie Cnty. v. Chaudhuri, 802 F.3d 267,
286 (2d Cir. 2015) (“Merely mentioning the relevant issue . . . is not
enough; issues not sufficiently argued are in general deemed waived
and will not be considered on appeal.” (citation omitted)).

5

14a
(footnote omitted) (quoting Inwood Lab’ys, Inc. v. Ives
Lab’ys, Inc., 456 U.S. 844, 850 n.10 (1982)). Product
features are essential when they are “dictated by the
functions to be performed by the article.” Id. (internal
quotation marks omitted); accord Warner Bros., Inc. v.
Gay Toys, Inc., 724 F.2d 327, 331 (2d Cir. 1983) (“[A]
feature that merely accommodates a useful function is not
enough.”). A feature affects cost or quality when it
“permits the article to be manufactured at a lower cost or
constitutes an improvement in the operation of the
goods.” Louboutin, 696 F.3d at 219 (internal quotation
marks omitted).
A feature can still be functional even if it is not
essential to a product’s use or purpose and does not affect
a product’s cost or operation. This is referred to as
aesthetic functionality, where “the aesthetic design of a
product is itself the mark for which protection is sought.”
Id. at 219-20 (emphasis in original). In such instances, this
Court considers whether “giving the markholder the right
to use it exclusively would put competitors at a significant
non-reputation-related disadvantage.” Id. at 220 (internal
quotation marks omitted).
The district court did not apply the Louboutin test in
either its oral statements on the record at the bench trial
or in its findings of fact and conclusions of law. The
district court’s findings that Mixpac’s use of colors for
mixing tips adds to Mixpac’s manufacturing costs and that
some of Mixpac’s competitors use different or no colors
for their mixing tips are not clearly erroneous and are
supported by the record. Jutzi testified that Mixpac
incurs “significant cost” for adding Candy Colors to
mixing tips. App’x at 582. Ferrari testified that “[m]any
other mixing tips use colors different from the Candy

15a
Colors” and discussed a colorless universal mixing tip that
Coltene manufactures. App’x at 614-15.
A&N does not argue to the contrary. Instead, A&N
argues that the mixing tips’ color coding helps users
identify useful product characteristics, such as diameter.
Because the color coding aids users, A&N argues that it
affects the quality of the mixing tips and is “essential to
how they are intended to be used.” Appellants’ Br. at 50.
The evidence elicited at the bench trial does not support
A&N’s argument that use of colors on mixing tips is
essential to use of the product. Color-coded mixing tips
and cartridges are simply not akin to the “dual-spring”
traffic sign design in TrafFix, where the dual-spring
system afforded a “unique and useful mechanism to resist
the force of the wind” and wind resistance is essential to a
traffic sign’s purpose of alerting drivers. TrafFix, 532
U.S. at 33. The district court did not make a factual
finding that colors are essential to the use or purpose of
mixing tips, and we decline to do so on this record.
The evidence elicited at the bench trial, however,
firmly establishes that the colors signify diameter, which
in turn assists users with selecting the proper cartridge
for their needs. As Mixpac’s own employees acknowledge,
the colors enable users to quickly match the proper
mixing tip with the proper cartridge, and thereby
“improve[] the operation of the goods.” Louboutin, 696
F.3d at 219 (internal quotation marks omitted). The
colors on the mixing tips serve roughly the same purpose
as the colors of the flash-frozen ice cream that the
Eleventh Circuit considered in Dippin’ Dots, Inc. v.
Frosty Bites Distribution, LLC, where the ice cream’s
colors signified flavor, i.e., pink signified strawberry,
white signified vanilla, and brown signified chocolate, and

16a
were therefore found to be functional. 369 F.3d 1197,
1203-04, 1207 (11th Cir. 2004); see also Inwood, 456 U.S.
at 853, 856-58 (concluding that our Circuit erred when it
set aside the district court’s findings that colors of certain
prescription drugs were functional, in part, because
patients “associate[d] color with therapeutic effect” and
“rel[ied] on color to differentiate one [drug] from another”
because those facts were not clearly erroneous).
The district court arguably came to this very
conclusion when it acknowledged in its oral findings a
“small” “degree of functionality,” after noting that “there
are probably cases in which some dentists have asked for
a yellow tip or a blue tip.” App’x at 858-59. But its
findings are unclear because it failed to apply the test set
forth in Louboutin, and thus did not consider whether the
colors affected the quality of the tips. Louboutin set out
the three-step functionality test, where “[a]t the start, we
address the two prongs of the Inwood test, asking
whether the design feature is either essential to the use
or purpose or affects the cost or quality of the product at
issue. . . . Next, if necessary, we turn to a third prong,
which is the competition inquiry . . . .” 696 F.3d at 220
(internal quotation marks omitted). We stressed that “if
a design feature would, from a traditional utilitarian
perspective, be considered essential to the use or purpose
of the article, or to affect its cost or quality, then the
design feature is functional under Inwood and our inquiry
ends.” Id. (internal quotation marks omitted). If and only
if a design feature is not functional in the traditional sense,
do we move to the fact-intensive test where the feature
must be “shown not to have a significant effect on
competition in order to receive trademark protection.” Id.
The district court erred because it did not apply this test

17a
when it considered only that Mixpac’s use of the Candy
Colors adds to manufacturing costs and that other
companies use different or no colors.
Mixpac does not refute by evidence or argument that,
because the colors on the tip correspond to the tip sizes,
the color affects the quality of the product. It argues only
that Cisneros, A&N’s expert witness, testified that
choosing a mixing tip based on color alone would be
“stupid.” Appellee’s Br. at 27 (citing App’x at 214). But
that does nothing to counter A&N’s argument because the
functionality doctrine does not require that a product’s
functional feature be the only reason why relevant
consumers purchase it. We thus conclude that the colors
are functional, rendering Mixpac’s trade dress
unprotectible. Our finding of functionality means we need
not reach A&N’s arguments that the district court’s
counterfeiting and infringement analyses were fatally
flawed. See TrafFix, 532 U.S. at 33 (“Functionality having
been established, whether [the] design has acquired
secondary meaning need not be considered. There is no
need, furthermore, to engage . . . in speculation about
other design possibilities . . . .”)
II. Contempt
A&N complains that the district court did not rule on
whether A&N should be held in contempt. It argues that
the default judgments underlying the claim are legal
nullities because (1) Seil Global was not subject to
personal jurisdiction and (2) even assuming the court
could exercise jurisdiction, the injunction underlying the
claim is fatally vague under Federal Rule of Civil
Procedure 65(d)(1)(C). The district court did not reach
the merits of Mixpac’s contempt claim. We generally
refrain from considering issues not decided by the district

18a
court. See United States v. Gomez, 877 F.3d 76, 92 (2d Cir.
2017). Though we have “broad discretion” to consider
issues “raised, briefed, and argued in the district court,”
we are “more likely to exercise our discretion (1) where
consideration of the issue is necessary to avoid manifest
injustice or (2) where the issue is purely legal and there is
no need for additional fact-finding.”
Id. (internal
quotation marks, alterations, and citations omitted). We
see no reason to deviate from our practice. For the same
reason, we do not decide the issue of personal jurisdiction.
We also decline to consider A&N’s argument that the
injunction is fatally vague, as A&N has failed to show
manifest injustice would result. On remand, the district
court is free to consider Mixpac’s contempt claim in the
first instance.
Finally, we see no reason to reassign this case on
remand. Reassignment upon remand is a “serious
request rarely made and rarely granted.” United States
v. Awadallah, 436 F.3d 125, 135 (2d Cir. 2006). We are not
“persuaded that the original judge would have substantial
difficulty in putting out of . . . mind . . . previously
expressed views” or that “reassignment is advisable to
preserve the appearance of justice.” Id. (internal
quotation marks omitted); see also Ligon v. City of New
York, 736 F.3d 118, 128-29 (2d Cir. 2013) (granting
request to reassign upon remand because judge
demonstrated partiality towards plaintiffs based on
statements made during trial and judge’s participation in
media interviews), vacated in part on other grounds, 743
F.3d 362 (2d Cir. 2014).
CONCLUSION
We conclude that the record evidence establishes that
Mixpac’s use of colors on its mixing tips affects their

19a
quality by identifying the mixing tip’s diameter,
rendering the trade dress functional. We decline to
address the contempt claim, on which the district court
did not rule. Upon remand, the district court should
consider the contempt claim. The judgment of the district
court is reversed, and the case is remanded for further
proceedings consistent with this opinion.

20a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------x
SULZER MIXPAC AG,
Plaintiff,
16-cv-9175 (LAK)
-againstA&N TRADING CO., et al.,
Defendants.
--------------------------------------------x
FINDINGS OF FACT AND CONCLUSIONS OF LAW
I. Findings of Fact
A. The Parties
1. The plaintiff is Sulzer Mixpac AG (“Mixpac”).
Mixpac manufactures a system for mixing two-part
adhesives for dental applications. All of Mixpac’s
mixing tips are made in Switzerland. Direct
Testimony Statement of Paul Jutzi (“Jutzi Direct”)
¶ 6.
2. Mixpac’s dental system consists of (1) a dispenserlike caulking gun, (2) a cartridge containing a twopart chemical such as an epoxy having a catalyst
and a resin, and (3) a mixing tip that mixes the
chemicals before they are applied for making, for
example, an impression or mold for teeth. Jutzi
Direct ¶ 7.
3. Defendant Sun Bin An aka Tony An is an employee

21a
and shareholder of Seil Global. He has been an
employee of the company since February 2016.
Stipulated Facts ¶¶ 7-8.
4. Defendant An’s father is the chief executive officer
of Seil Global and his mother is the president.
Stipulated Facts ¶¶ 1-2.
5. An used and did business under the name A&N
Trading Company (“A&N Trading Co.”) from
February until December 2016. An Deposition Tr.
174:15-176:18.
A&N Trading Co. was a
predecessor to defendant A&N Trading Co. Ltd.,
which An formed in December 2016. Stipulated
Facts ¶ 4; An Deposition Tr. 175:8-15.
6. Defendant A&N Trading Co. was the company –
though not formally incorporated – that existed at
the time of the 2016 Chicago and New York dental
shows. Stipulated Facts ¶ 5; An Deposition Tr.
32:6-21, 33:8-17, 174:15-175:4.
7. Defendant An is the president, sole owner, and only
employee of defendant A&N Trading Co. Ltd.
Stipulated Facts ¶ 3.
B. Mixpac’s Trademark Registration History
8. Mixpac since 1997 has sold different mixing tips,
each designed to include one of six “candy-like”
colors. The colors are yellow, teal, blue, pink,
purple, and brown or white (the “Candy Colors”).
Jutzi Direct ¶¶ 15, 17.
9. Mixpac has used the Candy Colors in connection
with other parts of its dental system, including on
the cartridge caps and intra-oral tips. Jutzi Direct
¶¶ 61, 63.

22a
10. In December 2008 and October 2009, Mixpac filed
trademark registrations for each of the Candy
Colors on the dome portion of Mixpac’s mixing tips.
It filed also a trademark registration for the dome
shape used on the mixing tip. PX1-7.
11. The trademark registrations became effective
between March 2010 and November 2011. PX1-7.
12. Mixpac filed additional trademark registrations in
December 2013 and October 2014 seeking
trademark protection for the Candy Colors
“applied to the lower portion of dental mixing tips.”
PX11-16. These became effective between January
2015 and January 2016. PX11-16.
13. Mixpac filed a third set of trademark registrations
in December 2014 that sought trademark
protection for the Candy Colors “applied to dental
mixing tips.” PX17-22.
These registrations
became effective between July and November
2017. PX17-22.
C. The Candy Colors are Non-Functional
14. Mixpac’s use of the Candy Colors adds to the cost
to Mixpac of making the Candy Color mixing tips.
Direct Testimony Statement of Daniel Ferrari
(“Ferrari Direct”) ¶¶ 77-78; Jutzi Direct ¶ 84.
15. Other companies in the industry use different
colors or no colors for their dental products
including dental mixing tips. Ferrari Direct ¶ 75.
D. Mixpac’s Advertising of the Candy Colors
16. Mixpac advertises its products including mixing
tips. A Mixpac advertising campaign employs the
phrase “Look For It!” to promote its products that

23a
use the Candy Colors. Ferrari Direct ¶¶ 61-66.
17. Mixpac has spent at least $1,000,000 since 2010 on
advertising featuring the Candy Colors in the
United States. Ferrari Direct ¶ 59.
E. Prior Enforcement Actions and Judgments
Against Seil Global
18. In 2008, Mixpac sued Seil Global in this Court,
alleging that Seil Global had infringed its
trademark and trade dress. DX-I at 1. Mixpac
alleged that defendants in that case, including Seil
Global, had copied its design for mixing tips that
included the Candy Colors on the dome-shaped
portion of the mixing tips. DX-I ¶¶ 12-22. Mixpac
sought an injunction, among other forms of relief.
DX-I at 1, 16-19.
19. Seil Global did not defend the action. PX8.
20. The Court entered a default judgment in favor of
Mixpac and issued a permanent injunction against
Seil Global on July 23, 2009. The injunction
prohibited Seil Global and “its principals, officers,
members, agents, servants, employees, attorneys,
and those persons under their control or in active
concert or participation with them who receive
actual notice of this Order” from “selling, offering
for sale, distributing, or advertising any mixing tips
that infringe The Colored Dome Mark and Mixpac
Trade Dress” or from “assisting, aiding or
abetting” any other entity in performing the
prohibited activities. PX8.
21 In 2011, Mixpac moved this Court by Order to
Show Cause why Seil Global should not be found in

24a
contempt of the 2009 permanent injunction for
making, selling, and distributing mixing tips that
allegedly infringed Mixpac’s trademarks and trade
dress. PX9.
22. The Court entered the order. PX9.
23. Seil Global did not file a response. PX9.
24. This Court found Seil Global in contempt of the
2009 permanent injunction and awarded $10,000 in
compensatory damages to Mixpac on September
12, 2011. PX9.
25. In 2013, Mixpac again moved by Order to Show
Cause why Seil Global should not be found in
contempt of the permanent injunction for allegedly
infringing on Mixpac’s trademarks and trade
dress. DX-L at 1.
26. The Court entered the order. DX-L at 1.
27. Seil Global did not respond to the Court’s order.
DX-L at 1.
28. The Court entered an order for civil contempt and
sanctions against Seil Global on May 28, 2013. The
order awarded damages in the amount of $41,250
and included a $20,000 fine. DX-L at 3.
29. Specifically, the Court found that Seil Global was in
contempt of the injunction for selling “New
Design” mixing tips that had a clear dome shaped
base and colors identical or nearly identical to the
Candy Colors visible through the dome on the base
and on screw. DX-L at 1; Stipulated Facts ¶ 16;
PX53.
30. Seil Global has not paid the fine or damages. DX-

25a
GS at 4.
31. Defendant An became aware of the 2009
permanent injunction and 2013 contempt order no
later than 2016. An Deposition Tr. 201:13-202:6.
F. A&N Trading Company Displayed and Advertised
Mixing Tips with Colors Identical or Nearly
Identical to the Candy Colors at the 2016 Greater
New York Dental Meeting
32. A&N Trading Co. was an exhibitor at the 2016
Greater New York Dental Meeting (“GNYDM”) at
the Javits Center in New York City from
November 27-30, 2016. Stipulated Facts ¶ 5; An
Direct ¶ 34; An Deposition Tr. 63:9-12.
33. Defendant An attended the show as a
representative of A&N Trading Co. So too did
Ricky Jung, a Seil Global employee. Stipulated
Facts ¶¶ 5, 13; An Direct ¶ 34; An Deposition Tr.
63:9-23.
34. A&N Trading Co. displayed and advertised at its
booth mixing tips with a clear dome and colored
screw. Stipulated Facts ¶ 5; Jutzi Direct ¶ 94;
PX35; An Direct ¶¶ 34, 35; DX-DS–DV.
35. The mixing tips that A&N Trading Co. displayed at
GNYDM were nearly identical to Mixpac mixing
tips. Stipulated Facts ¶ 5; PX3 5; An Direct ¶¶ 34,
35; DX-DM-DR; DX-DS–DV. The colors on the
A&N Trading Co. mixing tips displayed at
GNYDM were identical or nearly identical to the
Mixpac Candy Colors. Stipulated Facts ¶ 5;
Ferrari Direct ¶ 35; PX35; An Direct ¶¶ 34, 35; DXDM-DR; DX-DS–DV.

26a
36. The mixing tips were available for customers to
take as samples. An Deposition Tr. 66:8-16, 69:3-8.
37. During GNYDM, An collected business cards from
people who visited the A&N Trading Co. booth and
later contacted them. An Deposition Tr. 77:2478:11, 79:23-80:1.
G. A&N Trading Co.’s Mixing Tips Displayed at
GNYDM Caused Confusion
38. Attendees at GNYDM asked if they or A&N
Trading Co. could legally sell A&N Trading Co.’s
mixing tips in the United States or if doing so would
subject them to liability vis-a-vis Mixpac. An
Deposition Tr. 77:24-78:4, 79:15-80:1, 80:21-81:18.
H. A&N Trading Co. and A&N Trading Co. Ltd. are
Alter Egos of Seil Global
39. A&N Trading Co. exhibited at the February 2016
Chicago Dental Society Mid-Winter Meeting (the
“2016 Chicago Dental Show”). An Deposition
Tr.33:8-14; An Direct ¶ 33.
40. Defendant An did not attend the 2016 Chicago
Dental Show, but a representative of the company
did. An Deposition Tr. 33: 18-34: 1; An Direct ¶ 33.
41. Seil Global paid for A&N Trading Co.’s booth at the
2016 Chicago Dental Show. Seil Global paid for the
A&N Trading Co. representative’s travel expenses
as well. An Deposition Tr. 34:2-8.
42. A&N Trading Co. displayed mixing tips at its
booth. An Direct ¶ 33; An Deposition Tr. 34:9-11.
The mixing tips displayed were made by Seil
Global. An Deposition Tr. 61:24-62:9.

27a
43. Similarly, Seil Global paid the expenses of A&N
Trading Co. and its representatives, An and Jung,
at and associated with GNYDM, Stipulated Facts
¶¶ 13-14, and provided the mixing tips that A&N
Trading Co. displayed at its booth in New York.
Stipulated Facts ¶ 6. The mixing tips that were not
given out as samples at GNYDM were given back
to Seil Global. An Deposition Tr. 184:19-23.
44. Defendant An conducted A&N Trading Co.
business at and around the time of GNYDM using
a Seil Global email account. An Deposition Tr.
145:20-24, 149:13-20.
45. The business address listed in the GNYDM
exhibitor list for A&N Trading Co. is Seil Global’s
current business address. Stipulated Facts ¶ 10.
A&N Trading also borrowed office space in Korea
from Seil Global. An Deposition Tr. 110:1-9.
46. A&N Trading Co. is the predecessor to A&N
Trading Co. Ltd. Stipulated Facts ¶ 4. The
corporate records of A&N Trading Co. Ltd. list the
same business address as a current or prior
address listed on Seil Global’s Korean corporate
records. Stipulated Facts ¶ 11.
47. A&N Trading Co. Ltd. had an agreement with Seil
Global that the former would do only business in
the United States. An Deposition Tr. 182:6-9,
194:1-10.
I. Bad Faith,
Wilfulness,
Determinations

and

Credibility

48. The Court’s factual findings on the record at trial,
including those regarding defendant An’s bad faith,

28a
wilfulness, and spoliation of evidence, are
incorporated here. Trial Tr., May 9, 2019, 163:8164:2, 164:9-23, 170:1-171:4. The Court’s credibility
determinations regarding defendant An and Dr.
Cisneros are incorporated here as well. Trial Tr.,
May 9, 2019, 165:3-166:8; 170:1-171:4.
II. Conclusions of Law
A. Mixpac Has Proved Counts II and III by a
Preponderance of the Evidence
1. Plaintiff holds valid marks for the Candy Colors
that are entitled to protection.
2. Defendants used a reproduction, counterfeit, copy,
or colorable imitation of the Candy Color marks
without plaintiffs consent at the 2016 GNYDM.
3. Defendants used the reproduction, counterfeit,
copy, or colorable imitation in commerce in
connection with the sale, distribution, or
advertising of goods at the 2016 GNYDM.
4. Defendants’ use of the reproduction, counterfeit,
copy, or colorable imitation was likely to cause
confusion or mistake, or to deceive, and in fact did
cause confusion at the 2016 GNYDM.
5. The Court’s preliminary conclusions of law with
regard to infringement as stated on the record at
trial – particularly including but not limited to the
Court’s finding that the defendants acted wilfully –
are made final and incorporated here.
B. Mixpac Has Proved Count IV by a Preponderance
of the Evidence
6. Defendants used the Candy Color marks on mixing

29a
tips displayed at the 2016 GNYDM.
7. The mixing tips that defendants displayed at the
2016 GNYDM were advertised for sale. The
defendants thus used the Candy Color marks in
commerce.
8. Defendants’ use of the Candy Color marks on the
mixing tips displayed at the 2016 GNYDM was
likely to cause confusion or mistake, or to deceive
as to the affiliation or origin of the good, and in fact
did cause confusion as to the affiliation or origin of
the good.
9. The Court’s preliminary conclusions of law
relevant to this count as stated on the record at
trial are made final and incorporated here.
C. Mixpac Has Proved Count
Preponderance of the Evidence

VIII

by

a

10. Defendants used or imitated the Mixpac Candy
Colors on defendants’ mixing tips that they
displayed at the 2016 GNYDM.
11. The mixing tips that defendants displayed at the
2016 GNYDM were liable to deceive and did
deceive potential purchasers into believing that the
goods were manufactured or sold by the plaintiff.
12. The Court’s preliminary conclusions of law
relevant to this count as stated on the record at
trial are made final and incorporated here.
D. Mixpac Has Proved Count IX by a Preponderance
of the Evidence
13. Defendants used the Candy Colors or colors nearly
identical to the Candy Colors on dental mixing tips

30a
that defendants displayed at the 2016 GNYDM.
14. The mixing tips that defendants displayed at the
2016 GNYDM caused confusion with or were
mistaken for mixing tips produced by plaintiff.
15. Defendants acted in bad faith in displaying and
advertising for sale at the 2016 GNYDM their
mixing tips with colors identical or nearly identical
to the Candy Colors.
16. The Court’s preliminary conclusions of law
relevant to this count as stated on the record at
trial are made final and incorporated here.
E. Remaining Counts
17. Counts V, VI, and VII have been dismissed by
stipulation.
18. The plaintiff asserts and the Court agrees that it
need not reach Count I because it has found that
plaintiff proved infringement by a preponderance
of the evidence and a finding in favor of plaintiff on
Count I would not entitle plaintiff to any additional
relief.
F. Counterclaims
19. Defendants have failed to prove their
counterclaims by a preponderance of the evidence
substantially for the reason that they have failed to
prove that the marks are functional.
Dated: August 14, 2019

/s/ Lewis A. Kaplan
Lewis A. Kaplan
United States District Judge

31a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------x
SULZER MIXPAC AG,
Plaintiff,
16-cv-9175 (LAK)
-againstA&N TRADING CO., et al.,
Defendants.
--------------------------------------------x
JUDGMENT AND PERMANENT INJUNCTION
This case duly having come on for trial by the Court
without a jury and the Court having rendered findings of
fact and conclusions of law, it is hereby
ORDERED, ADJUDGED AND DECREED as
follows:
1.
Defendants, their principals, officers,
members, agents, servants, employees, attorneys, and all
persons in active concert or participation with them,
including, but not limited to, Seil Global, who receive
actual notice of this judgment and permanent injunction
by personal service or otherwise, and each of them, is
hereby enjoined and permanently restrained from:
(a) Selling, offering for sale, distributing or
advertising the A&N Trading Co. dental mixing
tips that defendants displayed at the 2016
GNYDM, or any other dental mixing tips that
infringe any of Mixpac’s Candy Color marks or

32a
are colorable imitations of any Mixpac dental
mixing tips, and/or
(b) Assisting, aiding, or abetting any other person
or entity in engaging in or performing any of
the activities described in subparagraph (a).
2.
Plaintiff shall recover of defendants, jointly
and severally, statutory damages in the amount of
$2,000,000 based on defendants’ wilful infringement
together with the costs of this action.
Dated: August 14, 2019
/s/ Lewis A. Kaplan
Lewis A. Kaplan
United States District Judge

33a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------X
SULZER MIXPAC AG,
Plaintiff,
v.
A&N TRADING COMPANY, et al.,
Defendants.
--------------------------------------------X

16 Civ. 9175
(LAK)
Trial
New York, N.Y.
May 9, 2019
9:30 a.m.

Before:

HON. LEWIS A. KAPLAN,
District Judge
APPEARANCES

NEWMAN MYERS KREINES GROSS HARRIS, P.C.
Attorneys for Plaintiff
BY: CHARLES D. COLE, JR.
-andGLOBAL IP COUNSELORS, LLP
BY: MICHAEL T. MURPHY
DANIEL HWANG
KENT, BEATTY & GORDON, LLP
Attorneys for Defendants
BY: JACK A. GORDON
JOSHUA B. KATZ
ANDREW E. SARTI

34a
*
*
*
*
*
[161] MR. GORDON:
We’d like to prepare them
after we have the transcript from today’s proceedings.
We can have them to you in short order, your Honor.
THE COURT:
What’s “short order”?
MR. GORDON:
Fourteen days.
THE COURT:
Okay. Both of you submit in
Word Perfect format. I’ll tell you where I am tentatively.
I reserve the right to edit this transcript. I may
conceivably issue the edited transcript as findings and
conclusions, or I may prepare, with the help you’re
providing me, my own.
But let me give you a brief rationale. I won’t go
through a discussion now of all the trademark
registration, and counsel have alluded to the extensive
background here.
Mixpac sued Seil Global in 2009. There was a
default judgment entered. A permanent injunction was
entered. The permanent injunction binds Seil Global, its
principals, officers, members, agents, servants,
employees, attorneys, and those persons under their
control or in active concert or participation with them who
receive actual notice of the order from, among other
things, selling, offering for sale, distributing, or
advertising any mixing tips that infringed the coloreddome mark and Mixpac trade dress or any colorable
imitations thereof.
It’s conceded that the defendants in this case are
covered by that language and by Rule 65(d)(2). It remains
[162] open, for the moment, the question of whether I ever
have to make a finding about whether that injunction has
been violated or not and whether it’s sufficiently specific
to satisfy Rule 65 and also the personal jurisdiction issue
we’ve been talking about.

35a
In 2011, Mixpac moved to hold Seil Global in
contempt of the 2009 injunction. Seil Global did not
respond. It was found in contempt. A judgment was
entered for $10,000 in compensatory damages which Seil
Global never paid.
Seil Global was again held in contempt in 2013. It
didn’t respond to that motion either. There were specific
findings with respect to the nature of the contempt. There
was an additional award totaling $61,250. Seil Global
didn’t pay that either.
Then in February 2016, A&N Trading Company,
which was not a legal entity and which supposedly was
operated by the gentleman who testified earlier today
whose nickname is Tony and last name is An. I’ll refer to
him as Tony An and his father, if it becomes necessary to
do so, as Mr. An.
Two people attended that trade show on behalf of
A&N. Seil Global paid for them to do so. A&N Trading
mixing tips were displayed at the show. They were all
made by Seil Global.
There was another trade show in New York, this
time in November of 2016 at the Javits Center. A&N
Trading exhibited again.
Its business address,
coincidentally, is identical to [163] that of Seil Global. Two
Seil Global personnel, including Tony An, attended. The
cost of the whole enterprise, including the travel, was paid
by Seil Global.
Again, mixing tips were displayed. They were
provided by Seil Global as well. They were made available
as samples to customers. During the show, Tony An
collected business cards from people who visited the booth
and later contacted them.
Now, there are two or three very notable facts
possibly about these trade shows or at least one of them.

36a
One extremely notable fact is that the reason, according
to Tony An, that they attended, at least the New York
trade show and, if memory serves, maybe also the Chicago
one, was to exhibit the Seil Global allegedly infringing tips
to the trade in an effort to find out whether the plaintiffs
in this case would object to their introducing these
products in the United States.
That assertion is ludicrous and, in my estimation, a
deliberate lie by Tony An on the witness stand in this trial.
It cost Seil Global, according to Tony An, around
$20,000 to exhibit at those trade shows. The notion that
they did that to see whether Mixpac would object is
preposterous.
Email existed. Mail existed. Telephones existed.
No rational businessman who had a bona fide interest in
finding out whether Mixpac would object would have
spent $20,000 to send people to the United States twice to
exhibit at a trade [164] show instead of picking up the
phone or writing. It is nonsense. It is really just
enormously preposterous.
Now, the first count of the complaint alleges that
the defendants violated the 2009 injunction and the
contempt order. I’m not going to address that today
because I want to consider whether it makes any
difference. There is no doubt in my mind, however, that
the defendants advertised, offered for sale, and
distributed mixing tips at the New York trade show.
Oh, yes. The other point I wanted to make about
Tony An’s testimony is that he admitted that right after
this lawsuit was brought, he deleted the sent box in his
email application, and it was there that his
communications, his messages outbound, to customers
that he met at the trade show were contained.
Given the background of this case and the

37a
dishonesty in relation to the reason for going to the trade
shows, I conclude that that was a deliberate spoliation of
evidence and that had the evidence not been destroyed for
the purpose of preventing it from coming to light in this
lawsuit, it would have demonstrated much greater
evidence of attempts to introduce the products in the
United States by the exposure at the trade shows and the
followup thereafter than is in this record in direct form.
Now, this leads to a collateral observation, though
it’s collateral only to this particular factual episode. It
[165] relates to the testimony of Dr. Cisneros. And I want
to get this up on my screen so I don’t misquote him.
Dr. Cisneros’ qualifications to testify as an expert,
and assuming, for the sake of argument, that he’s
qualified, the reliability and the logic and the scientific
nature of his investigation were otherwise – all would be
important – expressed the view in paragraph 59 of his
direct testimony that there was no bad faith on the part of
the defendants.
Now, even if Dr. Cisneros was eminently qualified
to express opinions about dental tips and some other
matters in this case, he has no qualifications whatsoever
to express an opinion with respect to whether the
defendants in this case acted in good faith or not.
But that didn’t stop him one bit. He said: “I
understand from the testimony of Defendant Sung Bin,
Tony An, that his purpose in displaying the dental mixing
tips at the 2016 New York dental show was not to sell
them but to get the opinion of plaintiff that they did not
infringe any of its rights. This indication of no bad faith,”
and so on.
The notion that anybody would purport to express
an opinion as an expert on good faith or bad faith is
shocking to begin with. The notion that someone would

38a
undertake to do so on the basis of the obviously selfinterested account of a named defendant in the lawsuit is
absurd.
And I mention it not to be unpleasant to Dr.
Cisneros, [166] who I understand is sitting in the back of
the courtroom, but to illustrate my broader conclusion
that this is an indication of any stick to beat the dog
opinion.
Anything that came to mind that he could use to
support the defendants’ case wound up in his testimony,
without regard to expertise, personal knowledge, or
anything else. I regard his testimony for this and other
reasons as entirely without weight. It is not credible,
apart from qualifications.
Now, the principal defense here is twofold: The
first fold is quite technical. The registered marks are on
use of color on the dome and use of color on another part
of the Mixpac tips. Those are the two groups of
registrations.
And the defendants’ product uses colors identical
to those that Mixpac uses on a different part of their
mixing tip, namely, the element often referred to as the
screw.
Now, if the registrations were all there were to this
case, that might give one some pause. But they are not.
This is, despite the very comprehensive pleading of
different claims, fundamentally a trade dress case.
It is clear to me, both from my observation of the
allegedly infringed products and the accused products
and the history and the bad faith, that this is a knockoff
case pure and simple.
This is an attempt by the defendants to capitalize
on the goodwill and market position of Mixpac by
producing a [167] product in the hope, in the hope, that it

39a
will be confused by the relevant marketplace to a
sufficient extent to make it a worthwhile enterprise for
the defendants by virtue of the identity of colors and the
proximity of that to the parts of the Mixpac product that
are identified in the two groups of trademark
registrations.
But it is most assuredly primarily a trade dress
case. And looking at it from that standpoint, I have no
doubt – and I find by a preponderance of the evidence at
least – that there is a very high likelihood of confusion.
That, after all, is the purpose of the whole enterprise.
Now, a consideration of the Polaroid factors really
supports what I’ve said. We are dealing with an
extremely strong mark. The trade dress is strong. The
degree of similarity is imperfect but close enough.
The proximity of the products is identical. I don’t
know that the bridging the gap factor cuts much one way
or the other. There is some evidence of actual confusion,
not tons but some.
As I’ve said, the junior user’s use was in bad faith.
There is nothing to be said on the subject of the quality of
the junior user’s product. There is just no evidence on
that that I’m aware of. The consumer group I think is, in
part, sophisticated and, in part, less so. But on the overall
balance, there is a likelihood of confusion, and that’s my
view [168] tentatively.
Now, a couple of other comments. The other
named defense is functionality.
I’ve had a little
experience with functionality defenses in trademark
cases. This one doesn’t fly.
I’ve set out previously all of the relevant standards.
I think they’re all good law today. Nobody has suggested
otherwise. Fabrication Enterprises, Inc. v. Hygenic
Corp., 64 Fed.3d 53. I apply them here. I won’t repeat

40a
them all. It would take me the rest of the afternoon.
The one point I would quote is that in order to – the
portion that reads: “In order properly to account for
these risks” – and that’s a reference to the risks of
overdoing, in one direction or the other, the functionality
analysis – “a court must examine a number variables
including: One, the degree of functionality of the similar
features of the product; secondly, the degree of similarity
between the non-functional (ornamental) features of the
competing products; and three, the feasibility of
alternative designs that would not impair the utility of the
product.” That appears at page 59.
The defendant has labored mightily to establish
that everybody in the dental world regards the color as a
proxy for diameter. I think there are probably cases in
which some dentists have asked for a yellow tip or a blue
tip. It would be only human nature. I think they are a
minority, a [169] substantial minority, that is to say, a
small minority.
Tips are mostly distributed with cartridges by
manufacturers, directly or through intermediaries. I’m
satisfied from Dr. Glazer’s quite persuasive and credible
testimony that the degree of functionality here is small.
The degree of similarity I’ve already really
discussed. The tips to a layman, accused, and the
allegedly infringed are actually very similar. The
defendant relies a lot on the placement of the color. But
that is, in my judgment, fundamentally a detail of
diminished importance compared to the potential for
confusion of the knockoff of the color scheme.
Most important of all with respect to functionality
is the fact that alternative designs are obviously and
clearly available without impairing the utility of the
product.

41a
There are examples of colorless tips available in
the marketplace in evidence. It is surely the case that a
competitor could function in this market using different
colors.
There is just no persuasive evidence that that’s not
true, and the evidence leads me to conclude by a
preponderance, even if the burden is on the plaintiff, that
they have met it. So much for functionality.
I’m satisfied that there was a use in commerce, at
least one, probably more. Let’s see if I’ve overlooked
[170] anything. Oh, yes. I want to say a word about the
German decision.
Tony An testified that he had a good-faith belief
that the A&N tips, which are really Seil Global tips, didn’t
infringe based on a decision by a court in Düsseldorf
which I have reviewed.
My reading of the decision indicates to me that the
core of the rationale of the German court was rooted in
the details of German and EC trademark law which is
rather different in some important respects from ours,
and I did not see anything in there about likelihood of
confusion.
Now, if I’m mistaken in that, somebody needs to
tell me because my German isn’t as good as it should be.
Of course, I'm teasing because you’ve provided a
translation, abeir ich verstehe ein bistchen Deutsch.
In any case, I don’t think that decision is strong
authority here. That reflects not any criticism of the
Düsseldorf court. I have no reason to doubt that it was
not an erudite analysis or even a correct analysis of
German and EC law. But it’s just different law and
different standards, and it has no bearing here, or at least
not much bearing.
Now, of course, Tony An is a layperson, and I doubt

42a
that his German is any better than mine and probably a
lot worse. So it is theoretically possible that he might have
read that and come to the conclusion he claims.
[171] On the other hand, however, I have found for
other reasons that he acted in bad faith in this case, and
the German decision doesn’t change my mind about that.
It’s made my finding on that issue.
Now, a word about relief is in order. Let me get
some notes. Now, I heard Mr. Murphy I thought say that
the plaintiff wanted either statutory damages or
attorney’s fees.
Was I right? Were there alternative prayers?
MR. MURPHY:
We asked for all of them of
course, but we’d be satisfied with either.
THE COURT:
What would the statutory
damages amount to here?
MR. MURPHY:
Well, that’s in the Court’s
discretion of course.
THE COURT:
In what range?
MR. MURPHY:
$1,000 to $100,000, assuming
no willfulness. But it sounds like the Court has concluded
that there was willfulness.
THE COURT:
I have.
MR. MURPHY:
And bad faith. It would need
also be with respect to counterfeiting of those
registrations. The registrations involved would be either
the color in the lower portion or the colored-dome
registrations. The law says “per registration.” There
were, I believe, five registrations involved which we’ve
alleged.
*
*
*
*
*

43a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of
New York, on the 6th day of May, two thousand twentyone.
___________________________
Sulzer Mixpac AG,
Plaintiff-Counter-DefendantAppellee,
v.

ORDER

A&N Trading Company, A&N
Trading Co. Ltd., and Sung
Bin An, AKA Tony An,

Docket No:
19-2951

Defendants-CounterClaimants-Appellants.
___________________________
Appellee, Sulzer Mixpac AG, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of

44a
the Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]

45a
APPENDIX F
15 U.S.C. § 1052. Trademarks registrable on principal
register; concurrent registration
No trademark by which the goods of the applicant may
be distinguished from the goods of others shall be refused
registration on the principal register on account of its
nature unless it—
(a) Consists of or comprises immoral, deceptive, or
scandalous matter; or matter which may disparage or
falsely suggest a connection with persons, living or dead,
institutions, beliefs, or national symbols, or bring them
into contempt, or disrepute; or a geographical indication
which, when used on or in connection with wines or spirits,
identifies a place other than the origin of the goods and is
first used on or in connection with wines or spirits by the
applicant on or after one year after the date on which the
WTO Agreement (as defined in section 3501(9) of title 19)
enters into force with respect to the United States.
(b) Consists of or comprises the flag or coat of arms or
other insignia of the United States, or of any State or
municipality, or of any foreign nation, or any simulation
thereof.
(c) Consists of or comprises a name, portrait, or
signature identifying a particular living individual except
by his written consent, or the name, signature, or portrait
of a deceased President of the United States during the
life of his widow, if any, except by the written consent of
the widow.
(d) Consists of or comprises a mark which so
resembles a mark registered in the Patent and
Trademark Office, or a mark or trade name previously
used in the United States by another and not abandoned,
as to be likely, when used on or in connection with the

46a
goods of the applicant, to cause confusion, or to cause
mistake, or to deceive: Provided, That if the Director
determines that confusion, mistake, or deception is not
likely to result from the continued use by more than one
person of the same or similar marks under conditions and
limitations as to the mode or place of use of the marks or
the goods on or in connection with which such marks are
used, concurrent registrations may be issued to such
persons when they have become entitled to use such
marks as a result of their concurrent lawful use in
commerce prior to (1) the earliest of the filing dates of the
applications pending or of any registration issued under
this chapter; (2) July 5, 1947, in the case of registrations
previously issued under the Act of March 3, 1881, or
February 20, 1905, and continuing in full force and effect
on that date; or (3) July 5, 1947, in the case of applications
filed under the Act of February 20, 1905, and registered
after July 5, 1947. Use prior to the filing date of any
pending application or a registration shall not be required
when the owner of such application or registration
consents to the grant of a concurrent registration to the
applicant. Concurrent registrations may also be issued by
the Director when a court of competent jurisdiction has
finally determined that more than one person is entitled
to use the same or similar marks in commerce. In issuing
concurrent registrations, the Director shall prescribe
conditions and limitations as to the mode or place of use
of the mark or the goods on or in connection with which
such mark is registered to the respective persons.
(e) Consists of a mark which (1) when used on or in
connection with the goods of the applicant is merely
descriptive or deceptively misdescriptive of them,
(2) when used on or in connection with the goods of the
applicant is primarily geographically descriptive of them,

47a
except as indications of regional origin may be registrable
under section 1054 of this title, (3) when used on or in
connection with the goods of the applicant is primarily
geographically deceptively misdescriptive of them, (4) is
primarily merely a surname, or (5) comprises any matter
that, as a whole, is functional.
(f) Except as expressly excluded in subsections (a), (b),
(c), (d), (e)(3), and (e)(5) of this section, nothing in this
chapter shall prevent the registration of a mark used by
the applicant which has become distinctive of the
applicant's goods in commerce. The Director may accept
as prima facie evidence that the mark has become
distinctive, as used on or in connection with the applicant’s
goods in commerce, proof of substantially exclusive and
continuous use thereof as a mark by the applicant in
commerce for the five years before the date on which the
claim of distinctiveness is made. Nothing in this section
shall prevent the registration of a mark which, when used
on or in connection with the goods of the applicant, is
primarily geographically deceptively misdescriptive of
them, and which became distinctive of the applicant’s
goods in commerce before December 8, 1993.
A mark which would be likely to cause dilution by
blurring or dilution by tarnishment under section 1125(c)
of this title, may be refused registration only pursuant to
a proceeding brought under section 1063 of this title. A
registration for a mark which would be likely to cause
dilution by blurring or dilution by tarnishment under
section 1125(c) of this title, may be canceled pursuant to a
proceeding brought under either section 1064 of this title
or section 1092 of this title.

48a
APPENDIX G
15 U.S.C. § 1065. Incontestability of right to use mark
under certain conditions
Except on a ground for which application to cancel may
be filed at any time under paragraphs (3) and (5) of section
1064 of this title, and except to the extent, if any, to which
the use of a mark registered on the principal register
infringes a valid right acquired under the law of any State
or Territory by use of a mark or trade name continuing
from a date prior to the date of registration under this
chapter of such registered mark, the right of the owner to
use such registered mark in commerce for the goods or
services on or in connection with which such registered
mark has been in continuous use for five consecutive years
subsequent to the date of such registration and is still in
use in commerce, shall be incontestable: Provided, That—
(1) there has been no final decision adverse to the
owner’s claim of ownership of such mark for such
goods or services, or to the owner’s right to register
the same or to keep the same on the register; and
(2) there is no proceeding involving said rights
pending in the United States Patent and Trademark
Office or in a court and not finally disposed of; and
(3) an affidavit is filed with the Director within one
year after the expiration of any such five-year period
setting forth those goods or services stated in the
registration on or in connection with which such mark
has been in continuous use for such five consecutive
years and is still in use in commerce, and other matters
specified in paragraphs (1) and (2) hereof; and (4) no
incontestable right shall be acquired in a mark which
is the generic name for the goods or services or a
portion thereof, for which it is registered.

49a
Subject to the conditions above specified in this
section, the incontestable right with reference to a mark
registered under this chapter shall apply to a mark
registered under the Act of March 3, 1881, or the Act of
February 20, 1905, upon the filing of the required affidavit
with the Director within one year after the expiration of
any period of five consecutive years after the date of
publication of a mark under the provisions of subsection
(c) of section 1062 of this title.
The Director shall notify any registrant who files the
above-prescribed affidavit of the filing thereof.

50a
APPENDIX H
15 U.S.C. § 1114. Remedies; infringement; innocent
infringement by printers and publishers
(1) Any person who shall, without the consent of the
registrant—
(a) use in commerce any reproduction, counterfeit,
copy, or colorable imitation of a registered mark in
connection with the sale, offering for sale, distribution,
or advertising of any goods or services on or in
connection with which such use is likely to cause
confusion, or to cause mistake, or to deceive; or
(b) reproduce, counterfeit, copy, or colorably
imitate a registered mark and apply such
reproduction, counterfeit, copy, or colorable imitation
to labels, signs, prints, packages, wrappers,
receptacles or advertisements intended to be used in
commerce upon or in connection with the sale, offering
for sale, distribution, or advertising of goods or
services on or in connection with which such use is
likely to cause confusion, or to cause mistake, or to
deceive,
shall be liable in a civil action by the registrant for the
remedies hereinafter provided. Under subsection (b)
hereof, the registrant shall not be entitled to recover
profits or damages unless the acts have been committed
with knowledge that such imitation is intended to be used
to cause confusion, or to cause mistake, or to deceive.
As used in this paragraph, the term “any person”
includes the United States, all agencies and
instrumentalities thereof, and all individuals, firms,
corporations, or other persons acting for the United
States and with the authorization and consent of the
United States, and any State, any instrumentality of a

51a
State, and any officer or employee of a State or
instrumentality of a State acting in his or her official
capacity.
The United States, all agencies and
instrumentalities thereof, and all individuals, firms,
corporations, other persons acting for the United States
and with the authorization and consent of the United
States, and any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions of
this chapter in the same manner and to the same extent as
any nongovernmental entity.
(2) Notwithstanding any other provision of .this
chapter, the remedies given to the owner of a right
infringed under this chapter or to a person bringing an
action under section 1125(a) or (d) of this title shall be
limited as follows:
(A) Where an infringer or violator is engaged solely
in the business of printing the mark or violating matter
for others and establishes that he or she was an
innocent infringer or innocent violator, the owner of
the right infringed or person bringing the action under
section 1125(a) of this title shall be entitled as against
such infringer or violator only to an injunction against
future printing.
(B) Where the infringement or violation
complained of is contained in or is part of paid
advertising matter in a newspaper, magazine, or other
similar periodical or in an electronic communication as
defined in section 2510(12) of title 18, the remedies of
the owner of the right infringed or person bringing the
action under section 1125(a) of this title as against the
publisher or distributor of such newspaper, magazine,
or other similar periodical or electronic communication
shall be limited to an injunction against the
presentation of such advertising matter in future

52a
issues of such newspapers, magazines, or other similar
periodicals or in future transmissions of such
electronic communications. The limitations of this
subparagraph shall apply only to innocent infringers
and innocent violators.
(C) Injunctive relief shall not be available to the
owner of the right infringed or person bringing the
action under section 1125(a) of this title with respect to
an issue of a newspaper, magazine, or other similar
periodical or an electronic communication containing
infringing matter or violating matter where
restraining the dissemination of such infringing
matter or violating matter in any particular issue of
such periodical or in an electronic communication
would delay the delivery of such issue or transmission
of such electronic communication after the regular
time for such delivery or transmission, and such delay
would be due to the method by which publication and
distribution of such periodical or transmission of such
electronic communication is customarily conducted in
accordance with sound business practice, and not due
to any method or device adopted to evade this section
or to prevent or delay the issuance of an injunction or
restraining order with respect to such infringing
matter or violating matter.
(D)(i)(I) A domain name registrar, a domain name
registry, or other domain name registration authority
that takes any action described under clause (ii)
affecting a domain name shall not be liable for
monetary relief or, except as provided in subclause
(II), for injunctive relief, to any person for such action,
regardless of whether the domain name is finally
determined to infringe or dilute the mark.
(II) A domain name registrar, domain name

53a
registry, or other domain name registration
authority described in subclause (I) may be subject
to injunctive relief only if such registrar, registry, or
other registration authority has—
(aa) not expeditiously deposited with a court, in
which an action has been filed regarding the
disposition of the domain name, documents
sufficient for the court to establish the court’s
control and authority regarding the disposition of
the registration and use of the domain name;
(bb) transferred, suspended, or otherwise
modified the domain name during the pendency of
the action, except upon order of the court; or
(cc) willfully failed to comply with any such
court order.
(ii) An action referred to under clause (i)(I) is any
action of refusing to register, removing from
registration, transferring, temporarily disabling, or
permanently canceling a domain name—
(I) in compliance with a court order under section
1125(d) of this title; or
(II) in the implementation of a reasonable policy
by such registrar, registry, or authority prohibiting
the registration of a domain name that is identical to,
confusingly similar to, or dilutive of another’s mark.
(iii) A domain name registrar, a domain name
registry, or other domain name registration authority
shall not be liable for damages under this section for
the registration or maintenance of a domain name for
another absent a showing of bad faith intent to profit
from such registration or maintenance of the domain
name.
(iv) If a registrar, registry, or other registration
authority takes an action described under clause (ii)

54a
based on a knowing and material misrepresentation
by any other person that a domain name is identical
to, confusingly similar to, or dilutive of a mark, the
person making the knowing and material
misrepresentation shall be liable for any damages,
including costs and attorney’s fees, incurred by the
domain name registrant as a result of such action.
The court may also grant injunctive relief to the
domain name registrant, including the reactivation of
the domain name or the transfer of the domain name
to the domain name registrant.
(v) A domain name registrant whose domain name
has been suspended, disabled, or transferred under a
policy described under clause (ii)(II) may, upon notice
to the mark owner, file a civil action to establish that
the registration or use of the domain name by such
registrant is not unlawful under this chapter. The
court may grant injunctive relief to the domain name
registrant, including the reactivation of the domain
name or transfer of the domain name to the domain
name registrant.
(E) As used in this paragraph—
(i) the term “violator” means a person who violates
section 1125(a) of this title; and
(ii) the term “violating matter” means matter that
is the subject of a violation under section 1125(a) of
this title.
(3)(A) Any person who engages in the conduct
described in paragraph (11) of section 110 of title 17 and
who complies with the requirements set forth in that
paragraph is not liable on account of such conduct for a
violation of any right under this chapter.
This
subparagraph does not preclude liability, nor shall it be
construed to restrict the defenses or limitations on rights

55a
granted under this chapter, of a person for conduct not
described in paragraph (11) of section 110 of title 17, even
if that person also engages in conduct described in
paragraph (11) of section 110 of such title.
(B) A manufacturer, licensee, or licensor of technology
that enables the making of limited portions of audio or
video content of a motion picture imperceptible as
described in subparagraph (A) is not liable on account of
such manufacture or license for a violation of any right
under this chapter, if such manufacturer, licensee, or
licensor ensures that the technology provides a clear and
conspicuous notice at the beginning of each performance
that the performance of the motion picture is altered from
the performance intended by the director or copyright
holder of the motion picture. The limitations on liability in
subparagraph (A) and this subparagraph shall not apply
to a manufacturer, licensee, or licensor of technology that
fails to comply with this paragraph.
(C) The requirement under subparagraph (B) to
provide notice shall apply only with respect to technology
manufactured after the end of the 180-day period
beginning on April 27, 2005.
(D) Any failure by a manufacturer, licensee, or licensor
of technology to qualify for the exemption under
subparagraphs (A) and (B) shall not be construed to create
an inference that any such party that engages in conduct
described in paragraph (11) of section 110 of title 17 is
liable for trademark infringement by reason of such
conduct.

56a
APPENDIX I
15 U.S.C. § 1115. Registration on principal register as
evidence of exclusive right to use mark; defenses
(a) Evidentiary value; defenses
Any registration issued under the Act of March 3,
1881, or the Act of February 20, 1905, or of a mark
registered on the principal register provided by this
chapter and owned by a party to an action shall be
admissible in evidence and shall be prima facie evidence of
the validity of the registered mark and of the registration
of the mark, of the registrant’s ownership of the mark, and
of the registrant’s exclusive right to use the registered
mark in commerce on or in connection with the goods or
services specified in the registration subject to any
conditions or limitations stated therein, but shall not
preclude another person from proving any legal or
equitable defense or defect, including those set forth in
subsection (b), which might have been asserted if such
mark had not been registered.
(b) Incontestability; defenses
To the extent that the right to use the registered mark
has become incontestable under section 1065 of this title,
the registration shall be conclusive evidence of the validity
of the registered mark and of the registration of the mark,
of the registrant’s ownership of the mark, and of the
registrant’s exclusive right to use the registered mark in
commerce. Such conclusive evidence shall relate to the
exclusive right to use the mark on or in connection with
the goods or services specified in the affidavit filed under
the provisions of section 1065 of this title, or in the renewal
application filed under the provisions of section 1059 of
this title if the goods or services specified in the renewal

57a
are fewer in number, subject to any conditions or
limitations in the registration or in such affidavit or
renewal application. Such conclusive evidence of the right
to use the registered mark shall be subject to proof of
infringement as defined in section 1114 of this title, and
shall be subject to the following defenses or defects:
(1) That the registration or the incontestable right
to use the mark was obtained fraudulently; or
(2) That the mark has been abandoned by the
registrant; or
(3) That the registered mark is being used by or
with the permission of the registrant or a person in
privity with the registrant, so as to misrepresent the
source of the goods or services on or in connection with
which the mark is used; or
(4) That the use of the name, term, or device
charged to be an infringement is a use, otherwise than
as a mark, of the party’s individual name in his own
business, or of the individual name of anyone in privity
with such party, or of a term or device which is
descriptive of and used fairly and in good faith only to
describe the goods or services of such party, or their
geographic origin; or
(5) That the mark whose use by a party is charged
as an infringement was adopted without knowledge of
the registrant’s prior use and has been continuously
used by such party or those in privity with him from a
date prior to (A) the date of constructive use of the
mark established pursuant to section 1057(c) of this
title, (B) the registration of the mark under this
chapter if the application for registration is filed before
the effective date of the Trademark Law Revision Act
of 1988, or (C) publication of the registered mark

58a
under subsection (c) of section 1062 of this title:
Provided, however, That this defense or defect shall
apply only for the area in which such continuous prior
use is proved; or
(6) That the mark whose use is charged as an
infringement was registered and used prior to the
registration under this chapter or publication under
subsection (c) of section 1062 of this title of the
registered mark of the registrant, and not abandoned:
Provided, however, That this defense or defect shall
apply only for the area in which the mark was used
prior to such registration or such publication of the
registrant’s mark; or
(7) That the mark has been or is being used to
violate the antitrust laws of the United States; or
(8) That the mark is functional; or (9) That
equitable principles, including laches, estoppel, and
acquiescence, are applicable.
(9) That equitable principles, including laches,
estoppel, and acquiescence, are applicable.

59a
APPENDIX J
15 U.S.C. § 1125. False designations of origin, false
descriptions, and dilution forbidden
(a) Civil action
(1) Any person who, on or in connection with any goods
or services, or any container for goods, uses in commerce
any word, term, name, symbol, or device, or any
combination thereof, or any false designation of origin,
false or misleading description of fact, or false or
misleading representation of fact, which—
(A) is likely to cause confusion, or to cause mistake,
or to deceive as to the affiliation, connection, or
association of such person with another person, or as
to the origin, sponsorship, or approval of his or her
goods, services, or commercial activities by another
person, or
(B) in commercial advertising or promotion,
misrepresents the nature, characteristics, qualities, or
geographic origin of his or her or another person’s
goods, services, or commercial activities, shall be liable
in a civil action by any person who believes that he or
she is or is likely to be damaged by such act.
(2) As used in this subsection, the term “any person”
includes any State, instrumentality of a State or employee
of a State or instrumentality of a State acting in his or her
official capacity. Any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions of
this chapter in the same manner and to the same extent as
any nongovernmental entity.
(3) In a civil action for trade dress infringement under
this chapter for trade dress not registered on the principal
register, the person who asserts trade dress protection
has the burden of proving that the matter sought to be

60a
protected is not functional.
(b) Importation
Any goods marked or labeled in contravention of the
provisions of this section shall not be imported into the
United States or admitted to entry at any customhouse of
the United States. The owner, importer, or consignee of
goods refused entry at any customhouse under this
section may have any recourse by protest or appeal that is
given under the customs revenue laws or may have the
remedy given by this chapter in cases involving goods
refused entry or seized.
(c) Dilution by blurring; dilution by tarnishment
(1) Injunctive relief
Subject to the principles of equity, the owner of a
famous mark that is distinctive, inherently or through
acquired distinctiveness, shall be entitled to an injunction
against another person who, at any time after the owner’s
mark has become famous, commences use of a mark or
trade name in commerce that is likely to cause dilution by
blurring or dilution by tarnishment of the famous mark,
regardless of the presence or absence of actual or likely
confusion, of competition, or of actual economic injury.
(2) Definitions
(A) For purposes of paragraph (1), a mark is famous if
it is widely recognized by the general consuming public of
the United States as a designation of source of the goods
or services of the mark’s owner. In determining whether
a mark possesses the requisite degree of recognition, the
court may consider all relevant factors, including the
following:
(i) The duration, extent, and geographic reach of
advertising and publicity of the mark, whether
advertised or publicized by the owner or third

61a
parties.
(ii) The amount, volume, and geographic extent of
sales of goods or services offered under the mark.
(iii) The extent of actual recognition of the mark.
(iv) Whether the mark was registered under the
Act of March 3, 1881, or the Act of February 20, 1905,
or on the principal register.
(B) For purposes of paragraph (1), “dilution by
blurring” is association arising from the similarity
between a mark or trade name and a famous mark that
impairs the distinctiveness of the famous mark. In
determining whether a mark or trade name is likely to
cause dilution by blurring, the court may consider all
relevant factors, including the following:
(i) The degree of similarity between the mark or
trade name and the famous mark.
(ii) The degree of inherent or acquired
distinctiveness of the famous mark.
(iii) The extent to which the owner of the famous
mark is engaging in substantially exclusive use of the
mark.
(iv) The degree of recognition of the famous mark.
(v) Whether the user of the mark or trade name
intended to create an association with the famous
mark.
(vi) Any actual association between the mark or
trade name and the famous mark.
(C) For purposes of paragraph (1), “dilution by
tarnishment” is association arising from the similarity
between a mark or trade name and a famous mark that
harms the reputation of the famous mark.
(3) Exclusions
The following shall not be actionable as dilution by

62a
blurring or dilution by tarnishment under this subsection:
(A) Any fair use, including a nominative or descriptive
fair use, or facilitation of such fair use, of a famous mark
by another person other than as a designation of source
for the person’s own goods or services, including use in
connection with—
(i) advertising or promotion that permits
consumers to compare goods or services; or
(ii) identifying and parodying, criticizing, or
commenting upon the famous mark owner or the
goods or services of the famous mark owner.
(B) All forms of news reporting and news commentary.
(C) Any noncommercial use of a mark.
(4) Burden of proof
In a civil action for trade dress dilution under this
chapter for trade dress not registered on the principal
register, the person who asserts trade dress protection
has the burden of proving that—
(A) the claimed trade dress, taken as a whole, is not
functional and is famous; and
(B) if the claimed trade dress includes any mark or
marks registered on the principal register, the
unregistered matter, taken as a whole, is famous separate
and apart from any fame of such registered marks.
(5) Additional remedies
In an action brought under this subsection, the owner
of the famous mark shall be entitled to injunctive relief as
set forth in section 1116 of this title. The owner of the
famous mark shall also be entitled to the remedies set
forth in sections 1117(a) and 1118 of this title, subject to
the discretion of the court and the principles of equity if—
(A) the mark or trade name that is likely to cause
dilution by blurring or dilution by tarnishment was first

63a
used in commerce by the person against whom the
injunction is sought after October 6, 2006; and
(B) in a claim arising under this subsection—
(i) by reason of dilution by blurring, the person
against whom the injunction is sought willfully
intended to trade on the recognition of the famous
mark; or
(ii) by reason of dilution by tarnishment, the
person against whom the injunction is sought
willfully intended to harm the reputation of the
famous mark.
(6) Ownership of valid registration a complete bar to
action
The ownership by a person of a valid registration
under the Act of March 3, 1881, or the Act of February 20,
1905, or on the principal register under this chapter shall
be a complete bar to an action against that person, with
respect to that mark, that—
(A) is brought by another person under the common
law or a statute of a State; and
(B)(i) seeks to prevent dilution by blurring or dilution
by tarnishment; or
(ii) asserts any claim of actual or likely damage or
harm to the distinctiveness or reputation of a mark, label,
or form of advertisement.
(7) Savings clause
Nothing in this subsection shall be construed to impair,
modify, or supersede the applicability of the patent laws
of the United States.
(d) Cyberpiracy prevention
(1)(A) A person shall be liable in a civil action by the
owner of a mark, including a personal name which is
protected as a mark under this section, if, without regard

64a
to the goods or services of the parties, that person—
(i) has a bad faith intent to profit from that mark,
including a personal name which is protected as a
mark under this section; and
(ii) registers, traffics in, or uses a domain name
that—
(I) in the case of a mark that is distinctive at the
time of registration of the domain name, is identical
or confusingly similar to that mark;
(II) in the case of a famous mark that is famous
at the time of registration of the domain name, is
identical or confusingly similar to or dilutive of that
mark; or
(III) is a trademark, word, or name protected
by reason of section 706 of title 18 or section 220506
of title 36.
(B)(i) In determining whether a person has a bad faith
intent described under subparagraph (A), a court may
consider factors such as, but not limited to—
(I) the trademark or other intellectual property
rights of the person, if any, in the domain name;
(II) the extent to which the domain name
consists of the legal name of the person or a name
that is otherwise commonly used to identify that
person;
(III) the person’s prior use, if any, of the
domain name in connection with the bona fide
offering of any goods or services;
(IV) the person’s bona fide noncommercial or
fair use of the mark in a site accessible under the
domain name;
(V) the person’s intent to divert consumers
from the mark owner’s online location to a site
accessible under the domain name that could harm

65a
the goodwill represented by the mark, either for
commercial gain or with the intent to tarnish or
disparage the mark, by creating a likelihood of
confusion as to the source, sponsorship, affiliation,
or endorsement of the site;
(VI) the person’s offer to transfer, sell, or
otherwise assign the domain name to the mark
owner or any third party for financial gain without
having used, or having an intent to use, the domain
name in the bona fide offering of any goods or
services, or the person’s prior conduct indicating a
pattern of such conduct;
(VII) the person’s provision of material and
misleading false contact information when
applying for the registration of the domain name,
the person’s intentional failure to maintain
accurate contact information, or the person’s prior
conduct indicating a pattern of such conduct;
(VIII) the person’s registration or acquisition of
multiple domain names which the person knows
are identical or confusingly similar to marks of
others that are distinctive at the time of
registration of such domain names, or dilutive of
famous marks of others that are famous at the time
of registration of such domain names, without
regard to the goods or services of the parties; and
(IX) the extent to which the mark incorporated
in the person’s domain name registration is or is
not distinctive and famous within the meaning of
subsection (c).
(ii) Bad faith intent described under
subparagraph (A) shall not be found in any case in
which the court determines that the person believed
and had reasonable grounds to believe that the use of

66a
the domain name was a fair use or otherwise lawful.
(C) In any civil action involving the registration,
trafficking, or use of a domain name under this paragraph,
a court may order the forfeiture or cancellation of the
domain name or the transfer of the domain name to the
owner of the mark.
(D) A person shall be liable for using a domain name
under subparagraph (A) only if that person is the domain
name registrant or that registrant’s authorized licensee.
(E) As used in this paragraph, the term “traffics in”
refers to transactions that include, but are not limited to,
sales, purchases, loans, pledges, licenses, exchanges of
currency, and any other transfer for consideration or
receipt in exchange for consideration.
(2)(A) The owner of a mark may file an in rem civil
action against a domain name in the judicial district in
which the domain name registrar, domain name registry,
or other domain name authority that registered or
assigned the domain name is located if—
(i) the domain name violates any right of the
owner of a mark registered in the Patent and
Trademark Office, or protected under subsection (a)
or (c); and
(ii) the court finds that the owner—
(I) is not able to obtain in personam jurisdiction
over a person who would have been a defendant in
a civil action under paragraph (1); or
(II) through due diligence was not able to find a
person who would have been a defendant in a civil
action under paragraph (1) by—
(aa) sending a notice of the alleged violation
and intent to proceed under this paragraph to the
registrant of the domain name at the postal and email address provided by the registrant to the

67a
registrar; and
(bb) publishing notice of the action as the
court may direct promptly after filing the action.
(B) The actions under subparagraph (A)(ii) shall
constitute service of process.
(C) In an in rem action under this paragraph, a domain
name shall be deemed to have its situs in the judicial
district in which—
(i) the domain name registrar, registry, or other
domain name authority that registered or assigned
the domain name is located; or
(ii) documents sufficient to establish control and
authority regarding the disposition of the
registration and use of the domain name are
deposited with the court.
(D)(i) The remedies in an in rem action under this
paragraph shall be limited to a court order for the
forfeiture or cancellation of the domain name or the
transfer of the domain name to the owner of the mark.
Upon receipt of written notification of a filed, stamped
copy of a complaint filed by the owner of a mark in a
United States district court under this paragraph, the
domain name registrar, domain name registry, or other
domain name authority shall—
(I) expeditiously deposit with the court
documents sufficient to establish the court’s
control and authority regarding the disposition of
the registration and use of the domain name to the
court; and
(II) not transfer, suspend, or otherwise modify
the domain name during the pendency of the
action, except upon order of the court.
(ii) The domain name registrar or registry or
other domain name authority shall not be liable for

68a
injunctive or monetary relief under this paragraph
except in the case of bad faith or reckless disregard,
which includes a willful failure to comply with any
such court order.
(3) The civil action established under paragraph (1)
and the in rem action established under paragraph (2), and
any remedy available under either such action, shall be in
addition to any other civil action or remedy otherwise
applicable.
(4) The in rem jurisdiction established under
paragraph (2) shall be in addition to any other jurisdiction
that otherwise exists, whether in rem or in personam.

69a
APPENDIX K
15 U.S.C. § 1127. Construction and definitions; intent
of chapter
In the construction of this chapter, unless the contrary
is plainly apparent from the context—
The United States includes and embraces all territory
which is under its jurisdiction and control.
The word “commerce” means all commerce which may
lawfully be regulated by Congress.
The term “principal register” refers to the register
provided for by sections 1051 to 1072 of this title, and the
term “supplemental register” refers to the register
provided for by sections 1091 to 1096 of this title.
The term “person” and any other word or term used to
designate the applicant or other entitled to a benefit or
privilege or rendered liable under the provisions of this
chapter includes a juristic person as well as a natural
person. The term “juristic person” includes a firm,
corporation, union, association, or other organization
capable of suing and being sued in a court of law.
The term “person” also includes the United States, any
agency or instrumentality thereof, or any individual, firm,
or corporation acting for the United States and with the
authorization and consent of the United States. The
United States, any agency or instrumentality thereof, and
any individual, firm, or corporation acting for the United
States and with the authorization and consent of the
United States, shall be subject to the provisions of this
chapter in the same manner and to the same extent as any
nongovernmental entity.
The term “person” also includes any State, any
instrumentality of a State, and any officer or employee of
a State or instrumentality of a State acting in his or her

70a
official capacity. Any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions of
this chapter in the same manner and to the same extent as
any nongovernmental entity.
The terms “applicant” and “registrant” embrace the
legal representatives, predecessors, successors and
assigns of such applicant or registrant.
The term “Director” means the Under Secretary of
Commerce for Intellectual Property and Director of the
United States Patent and Trademark Office.
The term “related company” means any person whose
use of a mark is controlled by the owner of the mark with
respect to the nature and quality of the goods or services
on or in connection with which the mark is used.
The terms “trade name” and “commercial name” mean
any name used by a person to identify his or her business
or vocation.
The term “trademark” includes any word, name,
symbol, or device, or any combination thereof—
(1) used by a person, or
(2) which a person has a bona fide intention to use
in commerce and applies to register on the principal
register established by this chapter,
to identify and distinguish his or her goods, including a
unique product, from those manufactured or sold by
others and to indicate the source of the goods, even if that
source is unknown.
The term “service mark” means any word, name,
symbol, or device, or any combination thereof—
(1) used by a person, or
(2) which a person has a bona fide intention to use
in commerce and applies to register on the principal
register established by this chapter,
to identify and distinguish the services of one person,

71a
including a unique service, from the services of others and
to indicate the source of the services, even if that source is
unknown. Titles, character names, and other distinctive
features of radio or television programs may be registered
as service marks notwithstanding that they, or the
programs, may advertise the goods of the sponsor.
The term “certification mark” means any word, name,
symbol, or device, or any combination thereof—
(1) used by a person other than its owner, or
(2) which its owner has a bona fide intention to
permit a person other than the owner to use in
commerce and files an application to register on the
principal register established by this chapter,
to certify regional or other origin, material, mode of
manufacture, quality, accuracy, or other characteristics of
such person’s goods or services or that the work or labor
on the goods or services was performed by members of a
union or other organization.
The term “collective mark” means a trademark or
service mark—
(1) used by the members of a cooperative, an
association, or other collective group or organization,
or
(2) which such cooperative, association, or other
collective group or organization has a bona fide
intention to use in commerce and applies to register on
the principal register established by this chapter,
and includes marks indicating membership in a union, an
association, or other organization.
The term “mark” includes any trademark, service
mark, collective mark, or certification mark.
The term “use in commerce” means the bona fide use
of a mark in the ordinary course of trade, and not made
merely to reserve a right in a mark. For purposes of this

72a
chapter, a mark shall be deemed to be in use in
commerce—
(1) on goods when—
(A) it is placed in any manner on the goods or
their containers or the displays associated
therewith or on the tags or labels affixed thereto,
or if the nature of the goods makes such placement
impracticable, then on documents associated with
the goods or their sale, and
(B) the goods are sold or transported in
commerce, and
(2) on services when it is used or displayed in the
sale or advertising of services and the services are
rendered in commerce, or the services are rendered
in more than one State or in the United States and a
foreign country and the person rendering the
services is engaged in commerce in connection with
the services.
A mark shall be deemed to be “abandoned” if either of
the following occurs:
(1) When its use has been discontinued with
intent not to resume such use. Intent not to resume
may be inferred from circumstances. Nonuse for 3
consecutive years shall be prima facie evidence of
abandonment. “Use” of a mark means the bona fide
use of such mark made in the ordinary course of
trade, and not made merely to reserve a right in a
mark.
(2) When any course of conduct of the owner,
including acts of omission as well as commission,
causes the mark to become the generic name for the
goods or services on or in connection with which it is
used or otherwise to lose its significance as a mark.
Purchaser motivation shall not be a test for

73a
determining abandonment under this paragraph.
The term “colorable imitation” includes any mark
which so resembles a registered mark as to be likely to
cause confusion or mistake or to deceive.
The term “registered mark” means a mark registered
in the United States Patent and Trademark Office under
this chapter or under the Act of March 3, 1881, or the Act
of February 20, 1905, or the Act of March 19, 1920. The
phrase “marks registered in the Patent and Trademark
Office” means registered marks.
The term “Act of March 3, 1881”, “Act of February 20,
1905”, or “Act of March 19, 1920”, means the respective
Act as amended.
A “counterfeit” is a spurious mark which is identical
with, or substantially indistinguishable from, a registered
mark.
The term “domain name” means any alphanumeric
designation which is registered with or assigned by any
domain name registrar, domain name registry, or other
domain name registration authority as part of an
electronic address on the Internet.
The term “Internet” has the meaning given that term
in section 230(f)(1) of title 47.
Words used in the singular include the plural and vice
versa.
The intent of this chapter is to regulate commerce
within the control of Congress by making actionable the
deceptive and misleading use of marks in such commerce;
to protect registered marks used in such commerce from
interference by State, or territorial legislation; to protect
persons engaged in such commerce against unfair
competition; to prevent fraud and deception in such
commerce by the use of reproductions, copies,
counterfeits, or colorable imitations of registered marks;

74a
and to provide rights and remedies stipulated by treaties
and conventions respecting trademarks, trade names, and
unfair competition entered into between the United States
and foreign nations.

75a
APPENDIX L

